<html>
<title> - THE MERCURY EXPORT BAN ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   THE MERCURY EXPORT BAN ACT OF 2007

=======================================================================



                                HEARING

                               BEFORE THE

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1534

                               __________

                             JUNE 22, 2007

                               __________

                           Serial No. 110-59


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                   U.S. GOVERNMENT PRINTING OFFICE
43-289 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                  (ii)
          Subcommittee on Environment and Hazardous Materials

                   ALBERT R. WYNN, Maryland, Chairman
FRANK PALLONE, Jr., New Jersey       JOHN SHIMKUS, Illinois,
BART STUPAK, Michigan                     Ranking Member
LOIS CAPPS, California               CLIFF STEARNS, Florida
TOM ALLEN, Maine                     NATHAN DEAL, Georgia
HILDA L. SOLIS, California           HEATHER WILSON, New Mexico
    Vice Chairman                    JOHN B. SHADEGG, Arizona
TAMMY BALDWIN, Wisconsin             VITO FOSELLA, New York
G.K. BUTTERFIELD, North Carolina     GEORGE RADANOVICH, California
JOHN BARROW, Georgia                 JOSEPH R. PITTS, Pennsylvania
BARON P. HILL, Indiana               LEE TERRY, Nebraska
DIANA DeGETTE, Colorado              MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          JOHN SULLIVAN, Oklahoma
HENRY A. WAXMAN, California          TIM MURPHY, Pennsylvania
GENE GREEN, Texas                    JOE BARTON, Texas (ex officio)
JAN SCHAKOWSKY, Illinois
JOHN D. DINGELL, Michigan (ex 
    officio)
                                 ------                                

                           Professional Staff

                    Richard Frandsen, Chief Counsel
                        Caroline Ahearn, Counsel
                    Ann Strickland, Brookings Fellow
                         Rachel Bleshman, Clerk
                     Gerald Couri, Minority Counsel

                             C O N T E N T S

                              ----------                              
                                                                   Page
H.R. 1534, to prohibit the sale, distribution, or transfer of 
  mercury, to prohibit the export of mercury, and for other 
  purposes.......................................................     8

Hon. Albert R. Wynn, a Representative in Congress from the State 
  of Maryland, opening statement.................................     1
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     3
Hon. Tom Allen, a Representative in Congress from the State of 
  Maine, opening statement.......................................     5
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................     6

                               Witnesses

Alice C. Williams, Deputy Associate Administrator, Infrastructure 
  and Environment, Office of Environmental Projects and 
  Operations, National Nuclear Security Administration, U.S. 
  Department of Energy...........................................    20
    Prepared statement...........................................    22
    Answers to submitted questions...............................   198
Cornel A. Holder, Administrator, Defense National Stockpile 
  Center, Defense Logistics Agency, U.S. Department of Defense...    23
    Prepared statement...........................................    24
    Answers to submitted questions...............................   217
James B. Gulliford, Assistant Administrator, Office of 
  Prevention, Pesticides, and Toxic Substances, U.S. 
  Environmental Protection Agency................................    26
    Prepared statement...........................................    28
    Answers to submitted questions...............................   241
Linda E. Greer, senior scientist, Natural Resources Defense 
  Council........................................................    43
    Prepared statement...........................................    46
    Answers to submitted questions...............................   232
Michael Shannon, M.D., chair, the Committee on Environmental 
  Health, American Association of Pediatrics; professor and 
  chair, Division of Emergency Medicine, Children's Hospital 
  Boston, Harvard Medical School.................................    92
    Prepared statement...........................................    92
    Answers to submitted questions...............................   191
C. Mark Smith, deputy director, Office of Research and Standards, 
  director, Massachusetts Mercury Program; co-chair, New England 
  Governors and Eastern Canadian Premiers Mercury Task Force; 
  Quicksilver Caucus, Massachusetts Representative...............    94
    Prepared statement...........................................    96
    Answers to submitted questions...............................   205
Arthur E. Dungan, president, the Chlorine Institute, Incorporated    99
    Prepared statement...........................................   101
    Answers to submitted questions...............................   223
Bruce Lawrence, president, Bethlehem Apparatus Company, 
  Incorporated...................................................   128
    Prepared statement...........................................   129
    Answers to submitted questions...............................   210

                           Submitted Material

Thaomas P. D'Agostino, Deputy Director, Defense Programs, 
  Department of Energy, memorandum of December 13, 2006, 
  submitted by Mr. Wynn..........................................   141
David P. Littell, commissioner, Maine Department of Environmental 
  Protection, letter of June 20, 2007, to Mr. Wynn...............   142
Michael Parkinson, M.D., American College of Preventive Medicine, 
  letter of June 20, 2007 to Mr. Wynn............................   144
Christopher Bowlin, vice president, government affairs, American 
  Medical Association, letter of June 21, 2007 to Mr. Wynn.......   145
    AMA Report of the Council on Scientific Affairs..............   151
    AMA Report of the Council on Science and Public Health.......   167
Rich Nolan, vice president, government affairs, National Mining 
  Association, letter of July 6, 2007 to Mr. Wynn................   179
Michael Tetreault, executive director, the Nature Conservancy, 
  letter of June 20, 2007 to Mr. Allen...........................   183
Michael McCally, M.D., executive director, Physicians for Social 
  Responsibility, letter of June 15, 2007 to Mr. Allen...........   184
Michael F. Hirshfield, senior vice president for North America 
  and chief scientist, Oceana, letter of June 21, 2007 to Messrs. 
  Wynn and Shimkus...............................................   186
Mark A. Kohorst, senior manager, Environment, Health & Safety, 
  National Electrical Manufacturers Association, letter of June 
  29, 2007, to Mr. Wynn..........................................   188


             H.R. 1534, THE MERCURY EXPORT BAN ACT OF 2007

                              ----------                              


                         FRIDAY, JUNE 22, 2007

              House of Representatives,    
                Subcommittee on Environment
                           and Hazardous Materials,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Albert R. 
Wynn (chairman) presiding.
    Members present: Representatives Capps, Allen, Barrow, 
Green, Schakowsky, Shimkus, and Pitts.
    Also present: Representative Gillmor.
    Staff present: Karen Torrent, Dick Frandsen, Caroline 
Ahearn, Ann Strickland, Rachel Bleshman, Jerry Couri, Garrett 
Golding, Tom Hassenboehler, and Mo Zilly.

 OPENING STATEMENT OF HON. ALBERT R. WYNN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Wynn. Good morning. I would like to call this meeting 
to order. Today, we have a hearing on H.R. 1534, the Mercury 
Export Ban Act of 2007, introduced by one of our distinguished 
members, Mr. Allen.
    For the purposes of making opening statements, the Chair 
and the ranking member of the subcommittee and the full 
committee chair will each be recognized for 5 minutes. All 
other members of the subcommittee will be recognized for 3 
minutes, though members may waive the right to make an opening 
statement and when first recognized to question witnesses, 
those members would then add 3 minutes to their time for 
questions. Without objection, all members have 5 legislative 
days to submit opening statements for the record.
    We are here today to hold a hearing on H.R. 1534, the 
Mercury Export Ban Act of 2007, which, as I indicated, was 
introduced and sponsored by my esteemed subcommittee colleague, 
Mr. Tom Allen from Maine. This very important legislation will 
place an export ban on elemental mercury beginning in year 2010 
and prevents Federal agencies from selling, transferring, or 
distributing elemental mercury.
    The availability of surplus elemental mercury on the world 
market presents a grave risk for our health and environment, as 
well as the global population and environment. Mercury is a 
potent neurotoxin that can cause brain, lung, and kidney 
damage. Mercury poses the greatest risk to our most vulnerable 
population, the fetuses, infants, children, and women of 
childbearing age. Mercury can be transmitted unknowingly by a 
mother to a fetus in utero and to a nursing infant through 
breast milk. In developing fetuses and young children, mercury 
disrupts biological processes critical to brain development.
    Mercury is released into the environment through mining and 
manufacturing processes and leaks or spills of mercury-
containing products. Mercury emissions can be transported over 
long distances and remain airborne for as long as a year. These 
emissions, through precipitation, deposit into water bodies 
where they are transformed by bacteria into highly toxic methyl 
mercury that accumulates in fish and subsequently in humans who 
eat mercury-contaminated fish. As many as 44 States have issued 
fish advisories warning residents to limit consumption of 
mercury-contaminated fish.
    Annual mercury use in the United States in the last 20 
years has actually decreased from 2,225 to 271 metric tons. The 
United States has an excess supply of elemental mercury from 
both private and Federal sources. This excess supply will only 
increase in future years as the demand for mercury-containing 
products continues to decline and the eight chloralkali plants 
that use elemental mercury close or switch to another 
manufacturing processes.
    As of 2010, there are expected to be five remaining mercury 
chloralkali plants. An estimated surplus of 1,400 to 1,500 
metric tons of elemental mercury would be generated if these 
five plants closed or switched to a non-mercury manufacturing 
process.
    EPA estimates that other mercury-generating sources: gold 
mining, consumer product recycling, and site remediation 
programs combine to generate up to 200 metric tons per year.
    Today, elemental mercury offered for sale from 
decommissioned chloralkali plants and the lesser producing 
sources travels through an unregulated and mysterious chain of 
brokers and processors. Much of this mercury ends up being used 
in artisanal or small scale gold mining by people in developing 
countries, mainly in Africa, Asia, and Latin America. These 
miners use mercury and heat to separate grains of gold from 
small bits of sand and rock in pans. This process releases most 
of the mercury into the environment, exposing people nearby to 
toxic fumes that can cause tremors, memory loss, and other 
symptoms of neurological damage. Between 10 and 15 million 
people, including 4.5 million women and 1 million children, are 
working at small scale mines. According to the United Nations 
Environment Program, artisanal mining results in the release of 
as much as 1,000 tons of mercury per year, accounting for about 
one-third of all global manmade mercury releases into the 
environment.
    Recall the principle that pollution knows no geographical 
boundaries, elemental mercury that we export overseas returns 
back to the United States as toxic pollution contaminating our 
country's air, soil, water and fish. Congress must take action 
now to prohibit the export of mercury to reduce this global 
pollution that imperils the health of our citizens, and also 
contributes to the ongoing degradation of the environment, both 
home and abroad.
    H.R. 1534 addresses the problem of global mercury pollution 
by banning the export of elemental mercury and setting up an 
advisory committee to advise Congress on how this excess 
mercury should be stored and handled for the long term. The 
legislation will also prevent Federal agencies from selling, 
transferring, or distributing elemental mercury. DOD and DOE 
combined store close to 6,000 metric tons of mercury. In fact, 
DOD and DOE's decision to stockpile their mercury grew out of 
their concerns about the impact that mercury releases may have 
on human health and the environment.
    I applaud Congressman Allen for his dedication and 
leadership on this issue, and I look forward to the testimony 
from the panels on this issue.
    At this time, I recognize our ranking member, Mr. Shimkus, 
for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, and it has been a 
long week, so if we struggle for words, we have actually been 
working here. It is good to have everybody here on time and 
moving punctually.
    Like you, I am interested in learning more on this subject 
and exploring the views from our witnesses. I appreciate our 
witnesses for coming here. In the last week, I think most of 
our members have learned more about mercury than in the past 
years that I have been here, because as a lot of us know, 
mercury is all around us. It is a natural element that appears 
in every high school classroom's periodic table. However, we 
know that human exposure to mercury can result in very serious 
health issues. When these products are mishandled, damaged or 
broken, we are exposed to vaporized elemental mercury. I even 
played with mercury in this form as a child, which some may 
explain why I am the way I am, and we won't go into that 
detail. Many folks in my era did, and I remember the neighbor 
down the street who had it. We pulled it out, we smashed it, we 
wove it together--scary times.
    Last night, the Senate passed their energy bill. In both 
their bill and the bill we marked up on committee on Wednesday, 
we have encouraged the use of these, compact fluorescent light 
bulbs. This could place mercury in people's homes, schools, 
daycare centers, hospitals, and nursing homes. We had this 
great debate Wednesday night about labeling, which I think we 
should both be embarrassed about. That is why I said it was 
kind of stupid, because it mentions mercury on this package. 
One side didn't want to put it on the package, we said put it 
on the package, and it is on the package anyway. Versus these 
types of light bulbs.
    Now, the Senate and us are going to expansively move to 
expand the use of these bulbs throughout not only our country, 
but we hope the world, which brings out the schizophrenic 
nature of our public policy debate, and I will highlight some 
of those when I get a chance.
    In our quest to be energy efficient, we must be careful to 
ensure that people are aware of the risk associated with 
mercury. My own State of Illinois, like eight other States, has 
passed a law to take mercury containing products out of 
schools. We do not know what the safe level of elemental 
mercury exposure is for our children.
    For the record, there are 144 lights in this hearing room 
filled with at least 8 milligrams, based on the 2002 industry 
standard. That is at least 1,152 milligrams of mercury, and we 
were talking about the baseball game, and I was envisioning 
this in the Wednesday night debate, what if a terrorist came 
into the room armed with 36 baseballs and started throwing them 
at the ceiling, busting the lights and spreading vaporized 
mercury all over the hearing room? Well, when a glass 
thermometer was dropped outside the attending physician's 
office, as was stated in the hearing on Wednesday night, they 
shut down the hallway for 4 hours. And that is less than the 
mercury involved in these light bulbs up here.
    Currently compact fluorescent bulbs are 5 to 6 percent of 
domestic lighting sales, and bulbs in the United States are 
made largely in Asia, specifically in China. As we know, the 
region has lower environmental standards than those in the 
United States. A lot of people would be surprised to find out 
that the United States is the only industrialized country that 
now has standards for mercury emissions. We talk about Europe 
and we talk about everybody else moving on environmental 
standards. United States is the only country that has mercury 
standards, and we will be able to address this in the second 
panel.
    Since mercury is an essential ingredient of bulbs, if the 
United States and the European Union cut off exports to China, 
what will that do for the global mercury stocks? Will the price 
become such that regular Americans who want this technology 
can't afford it? We are encouraging to buy it, but the light 
bulbs are exponentially more costly than regular old 
inefficient light bulbs.
    In addition, if we ban mercury exports, we need to figure 
out what we are going to do with all the mercury we have here. 
I know that some want essential storage facilities. Given the 
last three decades of controversy concerning Yucca Mountain, I 
would urge my colleagues to use caution when pursuing a similar 
solution to mercury. I have actually joked about let us just 
add an additional wing to Yucca Mountain. We can have the 
mercury wing and we can store it there.
    Finally, I want to know what the United States is doing 
from a regulatory and diplomatic perspective to reduce 
dangerous mercury exposures. Before we legislate, we need to 
know if there are gaps in existing law and how any of our 
efforts mesh with existing ones.
    Again, Mr. Chairman, I think we are just starting this 
whole process of informing members. It is a great hearing. I 
appreciate your time, and I yield back.
    Mr. Wynn. I thank the gentleman for his opening statement. 
I, too, played with mercury, so I know. I thought it was pretty 
cool, too.
    Mr. Shimkus. That explains you and me.
    Mr. Wynn. Hopefully we have come a long way since then.
    At this time, I would like to recognize the sponsor of the 
legislation, the distinguished gentleman from Maine, Mr. Tom 
Allen.

   OPENING STATEMENT OF HON. TOM ALLEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Allen. Thank you, Mr. Chairman. Thank you very much for 
your concern for this particular area, and for holding this 
hearing on my bill, H.R. 1534, the Mercury Export Ban Act of 
2007. I am pretty sure I played with mercury, too, so that 
makes three of us, but it was elemental mercury and you know, 
the waste issue that my friend Mr. Shimkus raised about any 
products containing mercury is something that needs to be 
addressed, because fundamentally, once elemental mercury gets 
into the waste stream and gets up in the atmosphere and comes 
down, it becomes methyl mercury in bodies of water, and that 
methyl mercury is the major challenge we have in terms of the 
effects on wildlife and the threat to human beings.
    It is a well-established fact that mercury is a powerful 
neurotoxin, harmful at even low exposure levels. It is harmful 
whether it is inhaled, ingested, or absorbed through the skin. 
Once exposed to water, elemental mercury is transformed to 
methyl mercury, which is highly toxic and which has a tendency 
to bioaccumulate in both fish and the humans who eat the fish, 
and I would add, songbirds and other things as well. Very young 
children with developing nervous systems are particularly at 
risk. In addition, pregnant mothers who are exposed to mercury 
pollution can transmit mercury to their unborn children, 
increasing the chances of miscarriage and birth defects.
    My home State of Maine has been a national leader in 
educating people about the dangers of mercury and in reducing 
exposure to mercury through State sources. Maine's 5,800 lakes 
and ponds and our 32,000 miles of rivers, streams, and brooks 
have been under a fish consumption advisory since 1994 because 
of mercury pollution. According to Commissioner David Latell of 
the Maine Department of Environmental Protection, ``In-state 
controls have reduced mercury emissions over 75 percent since 
1990. Seventy-five percent of our State's historic use of 
mercury in products will be eliminated through a series of 
sales and disposal bins; yet because mercury remains in 
widespread use elsewhere in the world, atmospheric transport 
continues to bring mercury into our States. Maine's actions 
alone cannot stop ongoing contamination of our environment.''
    My bill seeks to combat a large source of mercury pollution 
worldwide, namely the export of elemental mercury from the 
United States to developing countries. This mercury is used 
largely for artisanal mining. Exposure occurs when miners 
handle the mercury. It enters the water when miners pan for 
gold, and enters the air through the smelting process, which 
emits mercury vapor.
    According to the United Nations Environment Program, 
approximately 15 million people worldwide, including 4.5 
million women and 1 million children, engage in artisanal 
mining with mercury, exposing them to the poisons that mercury 
produces. Some of this mercury is exported from the United 
States, and that should be unacceptable to us as a Nation. 
Further, this practice harms Americans exposed through the 
global air transport of mercury pollution or through the 
consumption of mercury-contaminated fish.
    The Departments of Defense and Energy are the two largest 
holders of mercury in the United States. The EPA has urged DOD 
and DOE not to sell its mercury stockpiles, due to the serious 
human health and environmental risks associated with mercury. 
DOD and DOE have agreed; however, that ban is not in law, which 
is why my bill prohibits the Federal Government from exporting 
mercury. Further, private companies may still export this 
poisonous and hazardous material, which is why my legislation 
is necessary.
    Finally, I believe we need to develop a long-term solution 
to the problem of mercury storage and disposal, especially if 
we are going to ban the international trade in mercury. My bill 
establishes an advisory committee made up of a wide range of 
stakeholders that is tasked with reporting back to Congress no 
later than 1 year after enactment with recommendations for 
long-term storage options. Long-term storage of mercury is 
relatively easy and cheap, compared to storage and disposal of 
other hazardous materials.
    Again, thank you, Mr. Chairman, for holding this hearing, 
and I look forward to the testimony of our witnesses.
    Mr. Wynn. Thank you for your opening statement, and again, 
for your leadership on this issue.
    We have actually got a vote on. I would like to see if we 
can get opening statements in. I would like to recognize the 
gentleman, Mr. Pitts, for an opening statement.
    Mr. Pitts. I will waive.
    Mr. Wynn. I would like to recognize the gentleman, Mr. 
Green of Texas, for an opening statement.
    Mr. Green. Mr. Chairman, I will waive, but I support my 
colleague from Maine's bill. I have no problem at all with 
being able to develop a site to hold mercury. We do that with 
asbestos and other contaminated items.
    Thank you.
    Mr. Wynn. Thank you very much. At this point, the 
subcommittee will recess until the conclusion of votes, and 
other statements will be accepted for the record.. We will 
reconvene immediately after the last vote in this series.
    [The prepared statement of Mr. Green and H.R. 1534 
follows:]

  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    Mr. Chairman, thank you for holding this hearing today on 
H.R. 1534, the Mercury Export Ban of 2007. As a member of the 
Health Subcommittee and the Foreign Affairs Committee I 
recognize the global and health related benefits of this bill.
    Mercury is a neurotoxin that is very harmful to children, 
fetuses, and pregnant women. Once the true health effects of 
mercury were realized in the United States its use for 
manufacturing and products was decreased.
    However, we are now burdened with reserves of commercial 
mercury that is being sold to recyclers who have no mean of 
disposing of the mercury. The recyclers sell this mercury to 
brokers who distribute this mercury on the global market.
    Once on the global market this mercury is used by small 
scale gold miners who unknowingly allow their miners to 
unsafely expose themselves to mercury.
    Once this mercury is released into the atmosphere or water 
we are allowing other countries to contribute to a global 
mercury contamination problem.
    We essentially are selling mercury to other countries in an 
attempt to get rid of it only to have the mercury come back to 
us in the form of contamination.
    It is time we prohibit the sale of mercury overseas and 
begin safely stockpiling the mercury we have in this country.
    The Department of Defense and the Department of Energy have 
maintained Government mercury stockpiles for years and we 
should do the same with commercial mercury.
    The EPA has been investigating the issue of mercury in the 
United States for quite some time, but with no deadline issued 
by Congress progress on this issue has been slow.
    This bill would ban exporting elemental mercury by 2010 and 
the sale, distribution, or transfer of elemental mercury 
between State and local government, Federal agency, or private 
entity except for storage purposes.
    It would also require the EPA issue a report to Congress 1 
year after the ban to address the issue of mercury in the 
United States and create an Excess Mercury Storage Committee so 
that we can address the storage and health issues related to 
elemental mercury in the United States.
    Some of my colleagues on this committee may say that this 
bill is putting the cart before the horse. To that I say, 
sometimes we need to set deadlines in order to deal with the 
issues at hand.
    I support this bill and I urge my colleagues to do the 
same. Thank you Mr. Chairman, I yield back my time.
                              ----------                              

[GRAPHIC] [TIFF OMITTED] 43289.210

[GRAPHIC] [TIFF OMITTED] 43289.211

[GRAPHIC] [TIFF OMITTED] 43289.212

[GRAPHIC] [TIFF OMITTED] 43289.213

[GRAPHIC] [TIFF OMITTED] 43289.214

[GRAPHIC] [TIFF OMITTED] 43289.215

[GRAPHIC] [TIFF OMITTED] 43289.216

[GRAPHIC] [TIFF OMITTED] 43289.217

[GRAPHIC] [TIFF OMITTED] 43289.218

[GRAPHIC] [TIFF OMITTED] 43289.219

[GRAPHIC] [TIFF OMITTED] 43289.220

[GRAPHIC] [TIFF OMITTED] 43289.221

    [Recess.]
    Mr. Wynn. The subcommittee will now come to order.
    I believe I saw Mr. Barrow here. I was going to inquire if 
he wanted to make an opening statement, but he apparently 
stepped out.
    That being the case, I believe all opening statements are 
concluded and we will move to hearing from our distinguished 
panel. I would like to introduce Ms. Alice Williams, who is 
Deputy Associate Administrator for Infrastructure and 
Environment for the National Nuclear Security Administration, 
U.S. Department of Energy. We also have with us Mr. Cornel 
Holder, Administrator, National Defense Stockpile Center, U.S. 
Department of Defense, and also Mr. James Gulliford, Assistant 
Administrator, Office of Prevention, Pesticides, and Toxic 
Substances, U.S. Environmental Protection Agency.
    Welcome. Thank you for coming, and we would like to hear 
opening statements for about 5 minutes. Your entire statements, 
of course, will be included in the record.
    Ms. Williams, if you would like to proceed.

STATEMENT OF ALICE C. WILLIAMS, DEPUTY ASSOCIATE ADMINISTRATOR, 
    INFRASTRUCTURE AND ENVIRONMENT, OFFICE OF ENVIRONMENTAL 
      PROJECTS AND OPERATIONS, NATIONAL NUCLEAR SECURITY 
   ADMINISTRATION, U.S. DEPARTMENT OF ENERGY, WASHINGTON, DC

    Ms. Williams. Chairman Wynn, Ranking Member Shimkus, and 
members of the subcommittee, thank you for the opportunity to 
discuss the Department of Energy's management of its stockpile 
of mercury located at the National Nuclear Security 
Administration, NNSA, and I will refer to it as NNSA throughout 
the testimony, at the Y-12 National Security Complex at Oak 
Ridge, Tennessee.
    NNSA was established in 2000 as a separate organized agency 
within the Department of Energy, responsible for enhancing 
national security through the military application of nuclear 
energy. NNSA maintains and enhances the safety, security, 
reliability, and performance of U.S. nuclear weapons stockpile, 
works to continue to reduce global danger from weapons of mass 
destruction, provides the United States Navy with safe and 
effective nuclear propulsion, and responds to nuclear and 
radiological emergencies in the United States and abroad.
    Presently, the stockpile of surplus mercury owned by NNSA 
is in safe, secure storage at the Y-12 National Security 
Complex and the Department has no plans to sell it. The mercury 
in storage was originally acquired by the Atomic Energy 
Commission in the 1950s and 1960s for the separation of lithium 
isotopes. The Cold War production of enriched lithium required 
millions of pounds of mercury. In 1963, the Y-12 lithium 
separation and enrichment program was shut down, and over the 
next several years the production process was dismantled and 
the mercury was recovered. The mercury, some owned by the 
Department of Defense and some by the Department of Energy, was 
placed in storage at Y-12. Over time, a significant quantity of 
the mercury was sold, leaving 1,206 metric tons of the NNSA-
owned mercury still in storage. The last time the Department of 
Energy sold mercury was in 1994. This is the single-largest 
inventory of mercury in the DOE complex. The DOD owned mercury 
stored at Y-12 was transferred to the DOD storage facility in 
2005.
    In the 1970s, the NNSA mercury inventory was transferred 
from existing seamed flasks into new seamless flasks, each of 
which can hold 76 pounds of mercury. Approximately 35,000 of 
these flasks, which are made of 3L carbon steel and sealed with 
a threaded pipe plug, are stored in groups of 45 on wooden 
pallets. The pallets are stored up to three high in a single 
story solid brick wall constructed building that is used only 
for mercury storage. The building is approximately 150 feet by 
90 feet, and has a concrete floor that is sealed with a leak-
proof coating. A 6- to 8-inch dike exists around the outer edge 
of the building to contain any material that would be released 
in the event of a spill. In other words, the building is 
constructed to be environmentally protective. In addition, the 
building is equipped with an automatic dry pipe fire 
suppression system and portable fire extinguishers. The 
building is further located within security fences and 
boundaries, as well as within the perimeter intrusion detection 
and assessment system at the Y-12 facility.
    Continuous air monitoring and periodic visual inspections 
of the building are performed on a routine basis. The air 
monitoring is conducted at two locations near the storage 
building, and includes monitoring airborne mercury vapor. 
Measured concentrations are well below the current 
environmental and occupational health standards for inhalation 
exposure of the mercury vapor.
    The visual inspections are performed on a quarterly basis 
for fire safety and to observe for leaks or abnormal 
conditions. There is no history of a flask that has leaked and 
the condition of the flasks appears to be very good at this 
time.
    Providing for long-term storage of mercury at the Y-12 
complex will be costly. It has been estimated that storing the 
mercury for the next 40 years at Y-12 could cost about $42 
million. The costs are related to the maintenance of the 
building, such as installing a new roof, reflasking, if it is 
determined that the flasks storing the mercury have 
deteriorated significantly, air monitoring, visual inspections, 
and securing the building as well as the management.
    Following the decision by Defense Nuclear Stockpile Center 
in 1994 to halt the sale of mercury, NNSA began to explore its 
options for the disposition of the surplus mercury at Y-12. One 
of these options was to sell the surplus mercury, which 
resulted in the preparation of a draft environmental 
assessment. The EA, which tiered from the DOD's Final Mercury 
Management Environmental Impact Statement, analyzed the 
environmental impacts of several alternatives related to the 
management of mercury. Before the EA was finalized, NNSA 
decided in December 2006 to continue to store the surplus 
stockpile of mercury at the Y-12 site. This decision was based 
on several factors, but included mercury's known toxicity to 
living organisms and its mobility in the biosphere, continued 
global efforts to reduce the use of elemental mercury in the 
developing countries, and policies of other countries, for 
example, the countries that make up the European Union support 
long-term storage of elemental mercury.
    At this time, we believe that continuing to store NNSA's 
stockpile of mercury at our Y-12 complex or identifying an 
alternate storage location is the right thing to do. It ensures 
that the mercury will not be released to the global 
environment, thereby minimizing mercury emissions and reducing 
contamination levels in the environment of this toxic chemical.
    This concludes my statement, and I will be pleased to 
respond to your questions.
    [The prepared statement of Ms. Williams follows:]

                     Statement of Alice C. Williams

    Chairman Wynn, Ranking Member Shimkus, and members of the 
subcommittee, thank you for the opportunity to discuss the 
Department of Energy's management of its stockpile of mercury 
located at the National Nuclear Security Administration Y-12 
National Security Complex in Oak Ridge, Tennessee. NNSA was 
established in 2000 as a separate organized agency within the 
U.S. Department of Energy responsible for enhancing national 
security through the military application of nuclear energy. 
NNSA maintains and enhances the safety, security, reliability 
and performance of the U.S. nuclear weapons stockpile; works to 
reduce global danger from weapons of mass destruction; provides 
the U.S. Navy with safe and effective nuclear propulsion; and 
responds to nuclear and radiological emergencies in the United 
States and abroad.
    Presently, the stockpile of surplus mercury owned by NNSA 
is in safe, secure storage at the Y-12 National Security 
Complex and the Department has no plans to sell it. The mercury 
in storage was originally acquired by the Atomic Energy 
Commission in the 1950's and 1960's for the separation of 
lithium isotopes. The Cold War production of enriched lithium 
required millions of pounds of mercury. In 1963, the Y-12 
lithium separation and enrichment program was shut down, and 
over the next several years the production process was 
dismantled and mercury was recovered. The mercury, some owned 
by the Department of Defense (DOD) and some by the Department 
of Energy, was placed in storage at Y-12. Over time, a 
significant quantity of the mercury was sold leaving 1,206 
metric tons of the NNSA-owned mercury still in storage; the 
last time DOE sold mercury was in 1994. This is the single 
largest inventory of mercury in the DOE complex. The DOD-owned 
mercury stored at Y-12 was transferred to a DOD storage 
facility in 2005.
    In the 1970s the NNSA mercury inventory was transferred 
from existing seamed flasks to new seamless flasks, each of 
which can hold about 76 pounds of mercury. Approximately 35,000 
flasks, which are made of 3-L carbon steel and sealed with a 
threaded pipe plug, are stored in groups of 45 on wooden 
pallets. The pallets are stored up to three high in a single-
story, solid block wall construction building that is used only 
for mercury storage. The building is approximately 150 feet by 
90 feet and has a concrete floor that is sealed with a leak-
proof coating. A 6- to 8-inch dike exists around the outer edge 
of the building to contain any material that could be released 
in the event of a spill. In other words, the building is 
constructed to be environmentally protective. In addition, the 
building is equipped with an automatic dry-pipe (water supply) 
fire suppression system and portable fire extinguishers. The 
building is located within security fences and boundaries as 
well as within the Perimeter Intrusion, Detection, and 
Assessment System at Y-12.
    Continuous air monitoring and periodic visual inspections 
of the storage building are performed on a routine basis. The 
air monitoring is conducted at two locations near the storage 
building and includes monitoring airborne mercury vapor--
measured concentrations are well below the current 
environmental and occupational health standards for inhalation 
exposure to mercury vapor. The visual inspections are performed 
on a quarterly basis for fire safety and to observe for leaks 
or abnormal conditions. There is no history of a flask that has 
leaked and the condition of the flasks appears good at this 
time.
    Providing for long-term storage of mercury at the Y-12 
National Security Complex will be costly. It has been estimated 
that storing the mercury for the next 40 years at Y-12 could 
cost about $42 million. The costs are related to maintenance of 
the building such as installing a new roof; reflasking if it is 
determined that the flasks storing the mercury have 
deteriorated significantly; air monitoring; visual inspections; 
security of the building; and facility management.
    Following the decision by the Defense Nuclear Stockpile 
Center in 1994 to halt the sale of mercury, NNSA began to 
explore its options for the disposition of the surplus mercury 
at Y-12. One of these options was to sell the surplus mercury 
which resulted in the preparation of a draft Environmental 
Assessment (EA). The EA, which tiered from DOD's Final Mercury 
Management Environmental Impact Statement, analyzed the 
environmental impacts of several alternatives related to the 
management of mercury. Before the draft EA was finalized, NNSA 
decided in December 2006, to continue to store the surplus 
stockpile of mercury at the Y-12 site. This decision was based 
on several factors which included:

    <bullet> Mercury's known toxicity to living organisms and 
its mobility in the biosphere.
    <bullet> Continued global efforts to reduce the use of 
elemental mercury in developing countries.
    <bullet> The policies of other countries (e.g. the 
countries that make up the European Union) support long-term 
storage of elemental mercury.

    At this time we believe that continuing to store NNSA's 
stockpile of mercury at our Y-12 National Security Complex or 
identifying an alternate storage location is the right thing to 
do. It ensures that the mercury will not be released to the 
global environment thereby minimizing mercury emissions and 
reducing contamination levels in the environment of this toxic 
chemical.
    This concludes my statement. I will be pleased to respond 
to your questions.
                              ----------                              

    Mr. Wynn. Thank you for your testimony.
    We now would like to hear from Mr. Holder.

STATEMENT OF CORNEL A. HOLDER, ADMINISTRATOR, DEFENSE NATIONAL 
STOCKPILE CENTER, DEFENSE LOGISTICS AGENCY, U.S. DEPARTMENT OF 
                    DEFENSE, FT. BELVOIR, VA

    Mr. Holder. Good morning, Mr. Chairman, and distinguished 
members of the subcommittee. I am Cornel Holder, Administrator 
of Defense Stockpile Center, a field Activity of Defense 
Logistics Agency.
    The Defense Logistics Agency is the Department's only 
Logistics Combat Support Agency. The Defense National Stockpile 
Center is responsible for providing safe, secure, and 
environmentally sound storage for strategic and critical 
materials that make up the National Defense Stockpile.
    I appreciate the opportunity to appear today to describe 
the management of the stockpile and discuss the storage of 
elemental mercury in the inventory.
    The National Defense Stockpile was created shortly after 
World War II to acquire and store critical ores and materials. 
These supplies were intended to lessen the United States 
dependency on foreign sources of supply in times of war or 
national emergency. In 1988, the program was transferred by 
Executive order to Department of Defense, who assigned the 
management of the program to Defense Logistics Agency. A change 
in direction of the stockpile occurred in 1994 when over 99 
percent of the inventory was determined to be in excess of 
Department of Defense needs, and over the next several years 
Congress authorized its disposal.
    Elemental mercury has been in the stockpile inventory since 
the 1940s. The U.S. Government purchased the mercury inventory 
from a number of countries, including Spain, India, China, and 
Italy. Congress has authorized the sale of a small portion of 
mercury inventory in 1981, and the Defense National Stockpile 
Center sold mercury to foreign and domestic buyers into the 
early 1990s. In 1994, the Defense National Stockpile Center 
suspended the sales of mercury in response to congressional 
concerns about the potential environmental impact of selling 
mercury, and requested the Department to evaluate alternative 
mercury disposal options or long-term storage.
    Currently, there are 4,436 metric tons of mercury stored at 
depots located in Somerville, NJ; New Haven, IN; and Warren, 
OH. The mercury inventory is stored in 76-pound steel flasks 
and over-packed in 30-gallon carbon steel drums. Mercury has 
been safely stored for over 50 years.
    Annual reductions in the number of quantities of stockpile 
inventory has been occurring since 1994, and has lead to 
corresponding reductions in Defense National Stockpile Center 
infrastructure. The reductions led to the need to develop a 
long-term strategy for continued management of the mercury 
inventory. An environmental impact statement was initiated in 
2001 and completed in 2004. The statement analyzed three 
alternatives for long-term management of the mercury. One, 
leaving the mercury at existing storage locations; two, 
consolidating the mercury storage at one location; and selling 
the mercury inventory. In the record of decision, the Stockpile 
chose the long-term storage alternative. The decision was based 
on a combination of environmental and economic factors, policy 
consideration, and stakeholder's comments. Consolidated storage 
also facilitates the National Defense Stockpile long-term 
closure strategy at the sites in which mercury is removed. The 
chosen sites for consolidated storage is Hawthorne Army Depot 
in Hawthorne, Nevada. The Hawthorne Army Depot, a Government-
owned contractor-operated facility, will provide storage 
facilities as well as necessary service and support to maintain 
the mercury inventory. The Defense National Stockpile Center is 
working with the State of Nevada and Hawthorne to ensure the 
mercury is properly prepared for transportation to Nevada and 
that the facilities are upgraded to meet Stockpile's high 
standards.
    The Defense National Stockpile Center is fully committed to 
safe, secure, environmentally sound management and storage of 
the mercury. The decision to consolidate and store mercury is 
consistent with the H.R. 1534 prohibition on the sale and 
transfer of mercury by Federal agencies.
    I thank you for the opportunity to testify before the 
subcommittee on this important issue, and I welcome your 
questions.
    [The prepared statement of Mr. Holder follows:]

                     Statement of Cornel A. Holder

    Good morning, Mr.Chairman, and distinguished members of the 
subcommittee. I am Cornel Holder, administrator of the Defense 
National Stockpile Center (DNSC), a field activity of the 
Defense Logistics Agency (DLA). DLA is the Department of 
Defense's only Logistics Combat Support Agency. DNSC is 
responsible for providing safe, secure and environmentally 
sound stewardship for the strategic and critical materials that 
make up the National Defense Stockpile. I to describe DNSC's 
management of the National Defense Stockpile and to 
specifically discuss the management of the elemental mercury 
stored in the National Defense Stockpile inventory.
    The purpose of the National Defense Stockpile is to ensure 
that the United States has a sufficient supply of strategic and 
critical materials to supply military, industrial, and 
essential civilian needs for national defense. The National 
Defense Stockpile was created shortly after World War II to 
acquire and store critical ores and materials to lessen United 
States dependence on foreign sources of supply in times of war 
or national emergency. Between 1949 and 1988, the General 
Services Administration and the Federal Emergency Management 
Agency were responsible for the program. In 1988, Executive 
Order 12626 transferred the responsibility for the National 
Defense Stockpile to the Department of Defense who subsequently 
assigned the management of the program to the Defense Logistics 
Agency. DNSC was established within DLA to manage the strategic 
and critical materials held in the National Defense Stockpile. 
Since 1994, over 99 percent of the NDS has been determined to 
be excess to department needs, and Congress has authorized its 
disposal. The activities of DNSC are governed by the Strategic 
and Critical Materials Stock Piling Act, 50 U.S.C. Sec.  98 et 
seq.
    Elemental mercury has been in the National Defense 
Stockpile inventory since the 1940s. The United States 
government purchased the mercury inventory from a number of 
countries including Spain, India, China, and Italy. Congress 
had authorized the sale of a small portion of the mercury 
inventory in 1981, and DNSC sold mercury to foreign and 
domestic buyers into the early 1990s. In 1994, DNSC suspended 
the sale of mercury in response to congressional concerns 
regarding the potential environmental impact of selling mercury 
and the request that the Department evaluate alternative 
mercury disposal options or long-term storage. The 
Environmental Protection Agency supported our decision to 
suspend mercury sales and to develop environmentally sound 
management options for mercury.
    Currently, DNSC has 4,436 metric tons of mercury stored at 
depots located in Somerville, New Jersey; New Haven, Indiana; 
and Warren, Ohio. The DNSC inventory of mercury is stored in 76 
pound flasks. The mercury in the National Defense Stockpile has 
been safely stored for over 50 years and DNSC is fully 
committed to the safe, secure and environmentally sound 
management and storage of mercury. In 2001, to provide 
additional levels of protection, DNSC overpacked the mercury 
flasks into 30 gallon drums. There are six flasks per drum, 
with the flasks sealed in plastic bags with cardboard inserts 
to keep the flasks apart, and a mercury-absorbent cushion in 
the bottom of the drum. Each drum has a one inch rubber gasket 
in the drum ring that, when tightened, provides a water and 
air-tight seal. The drums are on pallets (five drums to a 
pallet) with drip pans underneath the drums for additional 
protection. Additionally, the warehouse floors where the 
mercury is stored have been sealed, and entry into each mercury 
storage access is controlled. Mercury vapor sampling is 
conducted during routine inspections and every three years 
private auditing companies conduct an environmental review of 
all DNSC storage locations.
    Reductions in the number and quantity of National Defense 
Stockpile inventory have led to a corresponding reduction in 
the DNSC infrastructure. DNSC has reduced its number of 
operating depots, closed out storage sites, and reduced its 
workforce. This reduction in footprint necessitated the 
development of a long-term strategy for the continued 
management of the mercury inventory. This required the 
preparation of an Environmental Impact Statement (EIS) pursuant 
to the National Environmental Policy Act (NEPA). DNSC analyzed 
three alternatives in its Environmental Impact Statement: (1) 
leaving the mercury at the existing storage locations; (2) 
consolidating mercury storage at one location; and (3) selling 
the mercury inventory. The EIS, completed in April 2004, 
indicated all three alternatives would have negligible to minor 
environmental impacts, and that the human health and ecological 
risks from all three would be negligible. In the Record of 
Decision for the Environmental Impact Statement, DNSC made the 
decision that long-term consolidated storage at one location 
was the preferable alternative. This decision was based on a 
combination of environmental and economic factors, policy 
considerations, and stakeholder comments. Consolidated storage 
also facilitates DNSC's long-term closure strategy at the sites 
from which the mercury is removed.
    Site selection for the consolidated storage of the mercury 
then needed to be determined. Hawthorne Army Depot (HWAD) in 
Hawthorne, Nevada, was considered as a consolidated storage 
location in the EIS. HWAD is a government-owned, contractor-
operated facility whose main mission is the maintenance and 
storage of conventional ammunition. HWAD includes sufficient 
warehouse space for the storage of the DNSC mercury inventory, 
and the EIS concluded that storage there would have minimal 
environmental impacts with negligible ecological and human 
health risks. DNSC signed a Memorandum of Agreement with the 
Army Joint Munitions Command on May 31, 2006, wherein HWAD will 
provide storage facilities and related support to maintain the 
DNSC mercury inventory on a reimbursable basis on behalf of 
DNSC. DNSC is currently working with HWAD and the Nevada 
Department of Conservation and Natural Resources to facilitate 
the transfer of mercury to Hawthorne and ensure the facilities 
are upgraded and safety protocols are in place for the 
continued safe and secure long-term storage of mercury. The 
projected transportation costs to move mercury to HWAD is $1.4 
million and the estimated annual storage cost at HWAD is $505 
thousand. If the Department were authorized to sell its 
existing stockpile of mercury--the estimated sales receipts 
would be $83.6 million.
    DNSC's decision to consolidate and store mercury allows us 
to continue to manage the National Defense Stockpile mercury 
inventory in an environmentally responsible, safe, and secure 
manner. This decision is consistent with the H.R. 1534, 
``Mercury Export Ban Act of 2007,'' prohibition on sale, 
distribution, or transfer of mercury by Federal Agencies. I 
thank you for the opportunity to testify before the 
subcommittee on this important issue.
                              ----------                              

    Mr. Wynn. Thank you very much, Mr. Holder.
    We will now hear from Mr. Gulliford.

   STATEMENT OF JAMES B. GULLIFORD, ASSISTANT ADMINISTRATOR, 
 OFFICE OF PREVENTION, PESTICIDES, AND TOXIC SUBSTANCES, U.S. 
        ENVIRONMENTAL PROTECTION AGENCY, WASHINGTON, DC

    Mr. Gulliford. Good morning, Chairman Wynn, Congressman 
Shimkus, and members of the committee. Thank you for inviting 
me to testify today regarding the export and storage of 
commodity grade mercury, and H.R. 1534, the Mercury Export Ban 
Act of 2007.
    I have a few opening remarks, but also ask that my written 
testimony be included for the hearing record.
    Mr. Wynn. Without objection.
    Mr. Gulliford. Thank you.
    Let me begin by emphasizing that I share your interest in 
continuing to advance efforts to reduce global and domestic use 
of mercury. I am proud of the work that we have done to date to 
address domestic mercury emissions and use, and to launch a 
number of international mercury partnerships. We are committed 
to working domestically and internationally to reduce mercury 
risk to human health and the environment.
    In July 2006, EPA published the Roadmap for Mercury. This 
document provides the public and all of our stakeholders with a 
clear statement of EPA's commitment to address mercury in the 
environment, and continued collaboration with our Federal and 
State partners is key to addressing the priorities and 
completing the projects that are outlined in the Roadmap.
    With respect to H.R. 1534, the Mercury Export Ban Act of 
2007, I think we all agree that the challenge of global mercury 
is multi-faceted and therefore, there are no simple solutions 
to this complex global problem. However, I believe that efforts 
to reduce mercury use and demand are the most important next 
steps.
    Programs to address mercury demand, both domestically and 
globally, and to eliminate the primary mining of mercury are 
critical. H.R. 1534 would impose a ban on exports of mercury 
from the United States. The prospect of an export ban raises a 
number of important questions that would need to be carefully 
considered. For example, would a ban on U.S. exports lead to 
new efforts of primary mining of mercury elsewhere in the world 
to meet global mercury demand? What effect might a U.S. export 
ban have on efforts to encourage the use of mercury from 
environmentally preferable sources, such as recycled mercury? 
Could an export ban be made consistent with U.S. trade 
obligations, and if such a ban were implemented, what would 
happen to excess stocks of mercury now in private hands in the 
United States? As an alternative to an export ban, the 
administration believes that the first priority should be given 
to pursuing demand management strategies.
    The proposed legislation also includes the establishment of 
an expert panel, and we agree that a stakeholder approach is 
valuable in developing solutions to storage of excess mercury. 
Earlier this year, EPA, in conjunction with a Federal 
interagency workgroup, established a stakeholder group to 
provide the Government with an assessment of options for 
managing non-Federal supplies of mercury. The stakeholder 
participants have been selected to represent a balanced mix of 
academia, industry, States, and nongovernmental organizations, 
and we have asked them to address how domestic, non-Federal 
stocks of mercury could be managed in the short and long term.
    Finally, we agree that the U.S. Government must exercise 
its stewardship responsibilities for the mercury stocks under 
its control, and I applaud both Departments of Defense and 
Energy, with whom EPA works closely, for their decisions to 
ensure that their stockpiles will remain safely in storage.
    Again, our domestic track record is solid. Demand for 
elemental mercury in the United States has declined 
significantly over the past decade, and I expect that trend to 
continue. However, there is still work to be done domestically 
and there are significant international needs as well.
    At the 2005 UNEP governing council, the United States led 
efforts to develop global partnerships to reduce risk for 
mercury internationally. EPA has been instrumental in leading 
the development and implementation of these partnerships which 
aim for tangible mercury reductions by leveraging resources, 
providing technical expertise, technology transfer, and 
information exchanges in various sectors, and we are committed 
to ensuring that these partnerships are both productive and 
effective.
    In closing, the administration places great importance on 
addressing both domestic and international mercury issues. EPA 
is committed to finding protective and comprehensive solutions, 
and I look forward to working with the subcommittee and others 
to achieve this shared goal.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Gulliford follows:]
    [GRAPHIC] [TIFF OMITTED] 43289.001
    
    [GRAPHIC] [TIFF OMITTED] 43289.002
    
    [GRAPHIC] [TIFF OMITTED] 43289.003
    
    [GRAPHIC] [TIFF OMITTED] 43289.004
    
    [GRAPHIC] [TIFF OMITTED] 43289.005
    
    [GRAPHIC] [TIFF OMITTED] 43289.006
    
    Mr. Wynn. Thank you, and I would like to thank all of the 
witnesses for their testimony.
    This concludes the opening statement of our panel of 
witnesses, and the Chair would like to recognize himself for 5 
minutes.
    Ms. Williams, the first question I have is: isn't it true 
that when DOE was deciding what to do with its 1,200 ton 
stockpile of mercury, that EPA urged NNSA to store the mercury 
and not to place it on the world market because of the harm 
that could result?
    Ms. Williams. EPA provided counsel to us, as did DOD, as 
did other Government agencies, and so we took all of those 
opinions and positions into account.
    Mr. Wynn. Could you describe the environmental and public 
health consequences that EPA shared with you?
    Ms. Williams. There were many of these that have already 
been shared in your opening comments. The fact that it is a 
bioaccumulating element; the fact that it gets into the water 
system and can microbially be changed into methyl mercury; the 
fact that it is very dangerous to women and unborn children. 
All of those were the things that we considered and we also had 
long discussions about artisanal mining and how artisanal 
mining is conducted and perhaps some of the impacts of that.
    Mr. Wynn. Thank you. Mr. Holder, DOD has also decided to 
stockpile its mercury and not sell it on the global market. Is 
it correct that DNSC voluntarily halted mercury sales in 1994 
because of the concerns raised by the EPA and others about the 
effect of mercury on the global environment?
    Mr. Holder. There were concerns also by Congress and EPA, 
and yes, we did suspend sales in 1994, based on those concerns 
about mercury getting into the environment.
    Mr. Wynn. Mr. Gulliford, the question I have is if EPA has 
now advised both DOE and DOD to store rather than sell its 
elemental mercury, when we talk about the private sector, are 
we essentially talking about the same kind of mercury?
    Mr. Gulliford. Yes, we are, same type of mercury.
    Mr. Wynn. Would you have similar environmental concerns 
with respect to this mercury being sold to foreign buyers as 
you expressed to DOE?
    Mr. Gulliford. Absolutely, and those concerns are stressed 
very clearly in both the Mercury Roadmap and in my testimony as 
well.
    Mr. Wynn. Now, you made reference to the possibility that 
there might be some new primary mining of mercury. Do you have 
any evidence of that?
    Mr. Gulliford. The ability to mine mercury exists, 
obviously, in various places in the world. It is currently very 
active right now in Kyrgyzstan and also in China, and clearly, 
the world market responds to the availability and the demand 
for mercury supplies. And while I don't necessarily have 
reasons to believe that mercury mining would or wouldn't 
increase, but I think it is likely, again, given the demand for 
mercury internationally----
    Mr. Wynn. Well, you are saying two things. One you are 
saying you don't know whether it would or it would not, then 
you are now saying it is likely.
    Can I say that you really don't have any evidence that it 
would increase, given that there are existing sources?
    Mr. Gulliford. As I stated in my testimony, I think that 
that's a very important question that would need to be explored 
in considerable detail.
    Mr. Wynn. What is the cost of these mining operations, if 
you were to start a primary mine?
    Mr. Gulliford. I don't know the answer to that question.
    Mr. Wynn. Do you know who finances these mining operations?
    Mr. Gulliford. I don't know the answer to that, but it 
would either be done through government----
    Mr. Wynn. Would someone financing a new mining operation be 
concerned about liability questions?
    Mr. Gulliford. I don't know whether they would or they 
wouldn't. I don't know the condition of actual mining that 
exists in the places that I have described, either Kyrgyzstan 
or China.
    Mr. Wynn. All right. I don't believe I have any further 
questions.
    I would like to turn to our ranking member, Mr. Shimkus, 
for questions.
    Mr. Shimkus. Thank you, Mr. Chairman. Those are really good 
questions, Kyrgyzstan and China, but we don't have a mining 
association here. They could probably answer the cost of what a 
mine costs, what is the commodity return, and the risk assumed 
and stuff. Maybe we can get them on record. Just a point.
    Mr. Gulliford, do you know that an export ban would reduce 
mercury contamination of air, water, or fish either in the U.S. 
or abroad?
    Mr. Gulliford. It would only reduce any types of emissions 
from mercury sources if it were to result in less actual use of 
mercury worldwide, and we can't be certain of that unless we 
know whether or not there are adequate supplies of mercury in 
the marketplace and other locations, and whether or not there 
would be additional mining initiated as a result of a ban on 
domestic export of mercury from the United States.
    The reality is the amount of mercury that is exported from 
the United States is not a great percentage of the world market 
share.
    Mr. Shimkus. There has to be a comprehensive approach. I 
mean, we are talking about China's mining operations. I think 
the vast majority involved, 99 percent of these are produced in 
China. Obviously--and I like these bulbs. I like energy 
efficiency. I think they are great things, but as we expand 
that, we are sending conflicting signals. We are sending a 
signal, more mercury, until technology--which I think in the 
light bulb industry, is 5 to 10 years away, depending upon what 
type of light bulb it is. I am not picking on it because I have 
got these in my home now. I am replacing them, and as such, we 
are purchasing them in the Federal buildings, but we are 
sending contrary signals if there needs to be a comprehensive 
approach, we are encouraging more mercury in the worldwide 
economy by pushing these bulbs, is that correct?
    Mr. Gulliford. The mercury for those bulbs pretty much is 
supplied by mining that actually occurs in China. China has the 
ability to produce mercury that it needs for its domestic 
purposes and for the development of products that it exports. 
It also exports traditional mercury containing products, such 
as thermometers, other measuring tools, and the like. So the 
Chinese are certainly willing to export mercury and put mercury 
in the various products.
    Mr. Shimkus. Yes. Is there a release in just the operation 
itself of a mine that either is a primary product or a 
secondary product? Is there a natural emission through the 
mining of mercury into the atmosphere?
    Mr. Gulliford. Yes. The mining activities do result in 
releases of mercury.
    Mr. Shimkus. Great. Thank you very much.
    Ms. Williams, according to your testimony, the DOE was left 
with 1,200 metric tons of recovered mercury in storage after it 
decided--Mr. Holder, in storage after it decided to stop its 
sales. How much was actually sold and what led to the decision 
to stop selling?
    Mr. Holder. Between 1980 and 1990s, we sold approximately 
50,000 flasks, which equates to about 3.8 million pounds of 
mercury. We currently have 4,436 metric tons remaining within 
the inventory.
    Mr. Shimkus. Who were the main buyers, do you know?
    Mr. Holder. Main buyers were domestic and international 
companies. Domestic, B.F. Goldsmith, Bethlehem Apparatus, 
Asian, Atlantis and international was Beni Mercurio.
    Mr. Shimkus. Is there any data about what happened to the 
price of mercury domestically and abroad after NNSA halted 
sales?
    Mr. Holder. No, after we basically left the marketplace, we 
did not continue gathering market intelligence of sales of 
mercury.
    Mr. Shimkus. In your verbal statement starting, you 
mentioned that there was also an economic factor in your 
decision.
    Mr. Holder. Yes.
    Mr. Shimkus. So you are saying that economically, your 
department decided--that was part of the variable deciding not 
to sell. Can you tell me about that economic balance----
    Mr. Holder. When we talk about that, we looked at the 
economic scale. Since we are basically selling off the entire 
stockpile inventory, one of the things we had to look at was 
reduction in sites, and so the consolidation of the mercury 
fits right in to our economy of scale of trying to find one 
site in order to move the mercury to one site, which would 
reduce oversight, and right now, it would cost us about $1 
million to store mercury at the three sites. Going to one site, 
the estimated cost is $500,000 per year.
    Mr. Shimkus. Ms. Williams, with the chairman's indulgence, 
any of the questions that I asked Mr. Holder, is there a 
response you have to some of those?
    Ms. Williams. We have not tracked the economics, and also I 
cannot tell you who the mercury was purchased by when we last 
sold it, and if you wish, I could take that for the record.
    Mr. Wynn. Gentleman's time is expired.
    At this time, I would like to turn to the bill's sponsor, 
Mr. Allen, for questions.
    Mr. Allen. Thank you, Mr. Chairman.
    Mr. Gulliford, from reading the testimony of those on the 
second panel, it seems clear we have got a rare consensus among 
the chloralkali industry, the environmental community, the 
States, and the medical community that we should stockpile our 
elemental mercury to prevent the environmental harm and the 
public health harm that comes from selling large amounts into 
the global economy. Do you disagree with that consensus?
    Mr. Gulliford. I believe that the best way to deal with 
mercury use, as we did domestically and internationally is to 
work on the demand side of the equation, that way we can 
provide technical information to developing countries that use 
mercury, it gives them a reason and it gives them an ability to 
stop using mercury. And the best way to end the use of mercury 
is to work again at the demand side, rather than through some 
type of an action that, again, we can't be certain will lead to 
the result that we are interested in.
    Mr. Allen. But if your reservations about a ban could be 
resolved, and I will come to some of those questions later, but 
if your reservations about a ban could be resolved, would you 
have any problem with stockpiling elemental mercury?
    Mr. Gulliford. I think that it is in our interest to find 
ways to store mercury that isn't needed, and I certainly agree 
with that premise. In fact, working with UNEP over the next 
couple of years, we will be working on examining this overall 
global situation of what mercury is used, where it is produced, 
where it is needed, what products still have value of using 
mercury, as we have discussed. And then ultimately they will 
look at some type of option.
    Mr. Allen. OK, thank you.
    You have indicated that EPA leads the UNEP partnership 
dealing with mercury management in artisanal and small scale 
gold mining, and has participated in the global mercury 
project. In February 2007, the Global Mercury Project reported 
its findings, and one of them was ``Various locations, specific 
Global Mercury Project training programs and assessments have 
demonstrated that when mercury is less available and/or more 
expensive, less mercury is consumed as miners switch to more 
efficient practices, sometimes eliminating mercury use 
entirely.'' What they are saying in that report is that make it 
more expensive, make it less available, and you create an 
incentive to switch to other substances. Do you disagree with 
that, or do you agree with it?
    Mr. Gulliford. I would say that we have not seen evidence 
of mercury use in our gold mining decreasing. In fact, our 
concern is that more artisanal mining is occurring around the 
world as people who have the need to generate income for 
themselves or their families look to mining as a way to 
generate income that they need to survive. And so we have not 
seen evidence of reduction in artisanal mining.
    Mr. Allen. Let me pursue that further. Based on what I 
understand, artisanal mining is occurring in only two places, 
the Kyrgyz Republic and China. At the Brussels Conference in 
October 2006, Kyrgyzstan announced a plan to close its mercury 
mine and would seek financial assistance to switch to mining of 
other metals. China, to my understanding, only mines for 
domestic consumption. I mean, it does make products, but it 
restricts imports of mercury. So I think you said earlier you 
are not aware of any new mining operations or any plans for new 
mining operations. I mean, aren't there things the United 
States could do to prevent or stop or discourage efforts to 
expand this kind of mining?
    Mr. Gulliford. Well, I am not aware that Kyrgyzstan has 
announced any plans to reduce their mining activities. I am 
also confident that China is more than willing to mine to 
produce all of the mercury that they need for any market, 
either domestic or international, on their part.
    Mr. Allen. I just have a few seconds left.
    You had a series of reservations, and I just wanted to deal 
with a couple of them. You asked could an export ban be made 
consistent with U.S. trade obligations, and we are only talking 
about $8 million a year here in terms of our exports. I would 
doubt that that would give rise to a real trade issue. You do 
properly raise the question if a ban were implemented, what 
would happen to excess stocks of mercury now in private hands. 
That is why we have provided for a committee to figure out how 
to store it. We think that issue is relatively easily resolved.
    I see my time is expired. Mr. Chairman, and I thank you.
    Mr. Wynn. I thank the gentleman for his line of 
questioning.
    At this time, I would like to recognize the gentleman Mr. 
Pitts for questioning.
    Mr. Pitts. Thank you, Mr. Chairman.
    For EPA, some countries like China are not committed to 
banning exports of mercury. What environmental good is being 
achieved if the United States bans its exports and other 
countries for financial reasons fill in the gap of the 
displaced commodity? Will banning exports have any positive 
environmental impact on countries that still mine for mercury?
    Mr. Gulliford. No. In fact, our concern is what will happen 
from a mining standpoint were there to be a domestic ban on 
mercury exports from the United States.
    Again, we have worked to actually encourage the use of 
preferable sources of mercury, which is recycled mercury 
products. Again, mercury is necessary. At the same time, we are 
very committed--and you can see that in the actions that have 
occurred domestically, as well as the leadership that we have 
provided to international efforts, through our partnership 
projects, to reduce this demand. We believe that ultimately, 
just as it has occurred in this country, we have reduced our 
use of elemental mercury by 87 percent in this country since 
1980, through education, through technology transfer, and 
providing alternatives to mercury use, that that is the most 
appropriate way to address mercury use internationally as well. 
We have had some success with the initial work of those 
partnership projects internationally.
    Mr. Pitts. Could increasing Federal mandates for energy 
efficient lighting together with an export ban for mercury 
contribute to increased mining of mercury in China or 
elsewhere?
    Mr. Gulliford. I believe that China has the ability and 
will mine as much mercury as they need to meet any opportunity 
that they have to develop industry and to market the products 
of that industry, including the use of mercury. Because they 
don't limit their mercury exports only to the compact 
fluorescent lighting products, they also export other mercury 
products, even such as the traditional thermometers that are 
used in hospitals throughout Asia.
    Mr. Pitts. Is it cheaper to mine virgin mercury in China or 
to buy it from the market? What is the mercury that is produced 
in China being used for?
    Mr. Gulliford. I think in China there are a lot of uses of 
mercury in different products. We talk a lot about the uses for 
artisanal mining, the lighting, and thermometers still being 
produced. Other devices are being produced such as thermostats 
and other types of products. So there are still a lot of uses, 
and all of them I think would need to be factored into a 
decision as to what the effect of a mercury export ban might 
be.
    Mr. Pitts. And again, what are you doing to address 
production and use of mercury by China?
    Mr. Gulliford. We have bilateral negotiations with China on 
a lot of issues. In fact, I have visited China in Shanghai and 
we have two projects with hospitals in Shanghai encouraging 
them to move away from some of the very products that they 
produce. Again, the use of mercury in hospitals, both in 
thermometers and in blood pressure cuffs, which are very 
common, result in spills which are hazardous particularly to 
the people that work there. They require maintenance because 
they leak over time, and there is a lot of mercury use and a 
lot of mercury leakage and problems with mercury exposure in 
hospitals.
    So we are working on issues like that. We are also working 
through the Asia Pacific Partnership on the challenge of 
mercury emissions from power plant generation and we are 
encouraging a responsible action on the part of China. China 
also is a large economic force that is very willing to market 
the types of products that are needed or used around the globe, 
and if they contain mercury, they are willing to export those 
products.
    Mr. Pitts. Now, you said Kyrgyzstan or Kyrgyz Republic is 
also producing. They don't have a lot of resources. What are 
you doing as far as their production?
    Mr. Gulliford. I am not aware that we have any direct 
partnerships with Kyrgyzstan on mining and use of mercury.
    Mr. Pitts. And EPA has a variety of activities underway to 
reduce mercury demand. Just, again, highlight some of the 
projects, both domestically and internationally, that explain 
why it is so important to manage demand as part of an effective 
solution here.
    Mr. Gulliford. Yes, consistent with the five UNEP 
partnership goals that they have set forth, we have 
demonstrations--and the United States has taken the lead on 
artisanal mining, and in the case of artisanal mining efforts, 
we have a project in Senegal where the mining operation there 
has incorporated the uses of hoods in the smelting process to 
capture mercury fumes and vapors as they are released, which 
results in less exposure to workers. It also results in less 
emissions into the atmosphere. I think the number is roughly 60 
of those mines are using that type of an activity to reduce 
emissions and local exposures.
    Another one of the areas of the UNEP partnerships is the 
chloralkali sector. We have a strong partnership in Russia 
where they have already transferred to non-mercury processes in 
a couple of their operations, and they are very substantial. 
Again, the use of mercury in Russia, is a very positive 
demonstration partnership project, and one that is repeatable, 
and Russia tends to continue to move through their domestic 
chloralkali facilities to transfer out of the mercury 
technology, as much as we see here in this country.
    We also have interests and we are working in the private 
sector, including our products and processes in our partnership 
projects. I mentioned the efforts that are in a number of 
countries to look at the use of mercury products in hospitals 
where exposure can be very high, particularly to the working 
staff of those hospitals, doctors and healthcare providers. The 
actual patients can move through hospitals fairly quickly and 
not be exposed for a long period of time, but the actual 
workers are under considerable exposure.
    The other two areas where we don't necessarily have the 
lead, but where we are also providing support internationally 
is to the issue of mercury emissions from coal-fired power 
plants and also then to look at the research components 
appropriate to mercury emissions, international transport of 
mercury.
    Mr. Pitts. And finally, can you speak to any of the recent 
consumer and retail concerns pertaining to the cleanup and 
disposal of CFLs?
    Mr. Gulliford. Yes. On the EPA Web site, we have some very 
specific instructions for consumers who use these bulbs. 
Concern is if they are broken, what should you do. If you look 
at that Web site, it would instruct any homeowner who has, for 
example, dropped one of these lights that resulted in a spill, 
first of all, to aerate the area, to vacate it, open all the 
windows, provide an opportunity to dissipate any emissions that 
might be from that bulb. Next, it instructs homeowners to clean 
up carefully, never vacuum because vacuuming only disperses it, 
but to use some type of a towel or something that will actually 
absorb the mercury, and put it into plastic containers, plastic 
bags, double bag it, that type of thing. Obviously, to be 
careful not to cut yourself when doing that, and then to 
dispose of it properly. There are disposal sites in many of our 
communities, or also it can be put into something that would go 
into a landfill. We would discourage it from going into a 
process that would ultimately result in incineration.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Wynn. The gentleman's time is expired.
    At this time, the Chair would recognize the gentlelady from 
Illinois, Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I take this issue 
of mercury very seriously. Some years ago I actually wrote a 
chapter in a book called ``50 Ways to Improve Women's Lives'' 
about the danger of mercury. My district sits on Lake Michigan 
and we are concerned about the contamination of fish. I have 
also been concerned, now that you have mentioned power plants, 
the decision on the Bush administration to roll back in 2005 
Clinton administration decisions requiring that all power 
plants reduce mercury emissions to the maximum extent possible 
by 2008.
    I wanted to call your attention, Mr. Gulliford, to the 
Global Mercury Project, the United Nations Global Mercury 
Project, and it delivered its report in February of this year. 
It says that it calls on nations around the world to achieve 
the goal of reducing mercury consumption by reducing mercury 
supply through export controls and other mechanisms that will 
encourage the transition to alternative technologies. Do you 
support the United Nations Global Mercury Project call for a 
mercury export ban?
    Mr. Gulliford. We are working very closely with the UNEP 
Council on their programs for mercury reduction, that is why we 
have made the effort to sponsor and support the five 
partnership projects. We are also working with them to support 
the gathering of the data to look at issues related to the 
mercury use, mercury demand, mercury supply, and the potential 
for any type of policy for the future----
    Ms. Schakowsky. Well, it sounds like you think that there 
are appropriate uses for mercury, and so Mr. Holder, the sites 
that contain mercury right now, we are not releasing anything 
from storage since 1996, right?
    Mr. Holder. Since 1994 we have suspended sales and we have 
not released any mercury from our warehouses.
    Ms. Schakowsky. So if you think, Mr. Gulliford, that there 
are legitimate uses, why would the EPA then say none of it 
could be released from storage?
    Mr. Gulliford. Clearly, the use of mercury in this country 
and our goal for the use of mercury internationally is to 
reduce the use of mercury. That has happened in this country. 
As I indicated, we have reduced mercury use domestically by 87 
percent since 1980, and that is a trend we believe will 
continue to occur. We don't believe there is need for all of 
the mercury and we think that it is very good that we have made 
a decision what to do with Federal sources, and we have 
convened a stakeholder panel to look at options for, again, 
what can we do to store properly domestic supplies.
    Ms. Schakowsky. And that is being all consolidated, the 
storage? Is that part of the plan?
    Mr. Holder. Part of the plan is to consolidate all the 
mercury into one storage site.
    Ms. Schakowsky. And also, Mr. Gulliford, you have been 
talking about efforts to encourage the--wait.
    In your testimony, you say the ban on U.S. exports of 
mercury raises questions such as what effect there might be on 
``efforts to encourage the use of mercury from environmentally 
preferable sources, such as recycled mercury.'' So is the 
United States engaged in efforts to encourage the use of 
mercury in those ways in the global market?
    Mr. Gulliford. I believe that the use of environmentally 
preferable sources of mercury are preferable to new mining. I 
don't think we should do anything to encourage the additional 
mining of mercury anywhere in the world, and rather we ought to 
use these existing sources of recycled mercury. They are very 
preferable.
    Ms. Schakowsky. Do we have metrics on this? Are there goals 
that you want to achieve? I know you mentioned how much mercury 
has been reduced, but are there specific goals to actually 
reduce the use of mercury, goals that are achievable and that 
we are aiming toward and measuring toward?
    Mr. Gulliford. Yes, there are, in some cases. For example, 
with respect to mercury switches in autos, when we worked with 
the auto industry to stop using mercury switches in automobiles 
and we backed that up and are just completing a rule that will 
prevent those from coming back into use at any future time. We 
also then went forward with the scrappers and the recycling 
industry, trying to get those mercury switches out of 
automobiles before they are shredded and then resmelted, and 
then you would have an air emission associated with that. We 
expect some very significant reductions in mercury, and so we 
do have numbers on those which we can get for you. We are also 
then looking for other products, such as similar devices that--
--
    Ms. Schakowsky. My time is expired and the chairman is 
gaveling.
    Thank you very much. I thank your indulgence, Mr. Chairman.
    Mr. Wynn. Thank the gentlelady for her questions.
    Are there other members seeking to ask questions at this 
time? Seeing none, I would like to thank all the witnesses on 
this panel for your outstanding testimony, and excuse you at 
this time, and ask that the second panel would come forward.
    Also at this time, the Chair is going to ask unanimous 
consent that a memo from Thomas D'Agostino, the Deputy 
Administrator for Defense Programs at DOE, the memo is dated 
December 13, 2006. In the memo, he states that the decision to 
store DOE's in NNSA's mercury inventory is based on several 
factors, including EPA's urging that this mercury be stored and 
not returned to the economy. I would, at this time, ask 
unanimous consent that it be included in the record.
    Mr. Shimkus. Reserving the right to object.
     Mr. Chairman, I don't think I will but I think we would 
like to see that.
    Mr. Wynn. I thought you had seen it but I certainly am 
happy to share it with you.
    Mr. Shimkus. And also, Mr. Chairman, as part of this opens 
up for a colloquy, whether there are insertions by the National 
Electronic Manufacturers Association of Lighting Manufacturers 
and the mining industry, if we would be allowed to submit a 
statement from them into the record, and what time we would be 
allowed to do that?
    Mr. Wynn. I don't have a problem with the submission. I 
would like, of course, to see them if the Democratic side has 
not seen them, so if you would allow us to see them, then I 
would----
    Mr. Shimkus. Yes, if you would just give us a timeframe so 
we make sure they get it here in an appropriate amount of time, 
then----
    Mr. Wynn. Would 5 days be a sufficient timeframe?
    Mr. Shimkus. I think that would be fine. That would be very 
generous, Mr. Chairman.
    Mr. Wynn. Probably too generous, but having said that, we 
will keep the record open for 5 days to receive the letter. I 
will reserve the right to object, however, pending receipt of 
that letter.
    Mr. Shimkus. We are all getting so smart, aren't we?
    Mr. Wynn. Give me time.
    With respect to the unanimous consent request that I made--
--
    Mr. Shimkus. I withdraw my objection, Mr. Chairman.
    Mr. Wynn. I thank the gentleman, and the memo will be 
entered into the record.
     I would also, at this time, seek unanimous consent to 
enter letters of support for H.R. 1534 into the record. I 
believe the minority does have these letters. They are from the 
State of Maine, the American Medical Association, the Nature 
Conservancy, and the American College of Preventative Medicine.
    Mr. Shimkus. No objection.
    Mr. Wynn. Hearing none, the letters are admitted into the 
record.
     At this time, I would like to welcome our second panel. I 
would like to introduce them and thank them for appearing.
    First, we have Dr. Linda Greer. She is a senior scientist, 
National Resources Defense Council. We also have Dr. Michael 
Shannon, chair of the Committee on Environmental Health and 
American Academy of Pediatrics. We have Mr. Mark Smith, deputy 
director, Office of Research and Standards, Director, 
Massachusetts Mercury Program, Massachusetts Department of 
Environmental Protection. We also have with us Mr. Arthur 
Dungan, president of the Chlorine Institute, and finally, Mr. 
Bruce Lawrence, president, Bethlehem Apparatus Company.
    Again, welcome, and we will begin with 5-minute opening 
statements from each of the panelists. The prepared testimony 
that you submitted in advance will be made a part of the 
hearing record. And with that, Dr. Greer.

    STATEMENT OF LINDA E. GREER, SENIOR SCIENTIST, NATURAL 
           RESOURCES DEFENSE COUNCIL, WASHINGTON, DC

    Ms. Greer. Thank you. Well, good morning. Thank you for the 
opportunity to testify. I direct the Environmental Health 
Program at the Natural Resources Defense Council, which is an 
environmental advocacy organization. In that capacity, I focus 
on the most dangerous chemicals that are in the air, in the 
water, in the food, or in our houses, and mercury has been on 
our radar screen as our highest priority pollutant in the food 
supply for the purposes of protecting health in the United 
States.
    For that reason, I have been working personally and with 
some of my staff on both global mercury pollution issues and 
domestic mercury issues here in the United States for about 5 
years. In my oral testimony, let me try to simplify this issue 
for the hearing today and provide my perspective on the need 
for this legislation.
    I think the basic question at hand is: ``Why should we care 
about exporting mercury out of our borders? Why should we care 
about where it goes?'' And there are really two big reasons why 
we should care about this and why we need this bill. The first 
reason, which has been covered in several opening statements, 
is that mercury is a global pollutant, and so the unfortunate 
fact of the matter is that if we ship mercury abroad and it 
gets used in polluting ways, that mercury comes right back at 
us. We don't have the luxury of not caring about mercury 
outside of our borders. We need to worry about the management 
of that mercury all along in order to protect our own health 
and our own food supply.
    The second reason is sort of a dollars and cents reason, 
which is this: States and localities are expending much 
welcomed effort in collecting and recycling mercury-containing 
products because it is very dangerous for those products to 
wind up in municipal trash stream and then get burned in a 
municipal incinerator or break. It doesn't make any sense, 
though, for them to collect all that mercury, to take all that 
time and trouble, just to put it in a bucket, so to speak, and 
send it abroad to highly polluting uses. Recycling for reuse in 
highly polluting industries is not a step in the right 
direction. Because mercury is a global pollutant, if we take 
the time and trouble to collect these small sources, we should 
then not be sending it off to countries in the developing world 
who are then going to mismanage it. Unfortunately, unless we do 
something like the export ban we are discussing today, we do 
not have any control over where this mercury goes.
    In its testimony today, EPA expresses concern about the 
unattended consequences of a mercury export ban on promoting 
environmentally preferable recycled sources of mercury. My 
answer to that concern is this: there really is nothing 
environmentally preferable about collecting mercury just to 
send it abroad to recycling, and I think the problem would be 
to the contrary. I think over a longer period of time, as 
States and localities watch the money and effort they are 
putting in to collect this mercury go for essentially no big 
purpose--that is, just collect the mercury in order to send 
over to Vietnam or India or someplace that will mismanage it--
that people will become disillusioned about the value of 
recycling and they will feel like they should turn their 
resources to something that makes a bigger contribution in the 
big picture.
    Now let me turn for a minute to an overview of the 
situation of the global mercury trade, which is a very bleak 
situation. It is important for people to take stock of this 
situation, because the magnitude of the problem we have right 
now is very large. It is important to compare this against the 
speculative unintended consequences, such as those that have 
been raised by EPA and others today in their testimony. So much 
of the detail about this is in my written statement. I will 
highlight for you only this. We use between 3,000 and 3,500 
tons of mercury globally per year. That has gone down 
enormously over the past 50 years, but it has been stable for 
the last decade. Usage is not going down fast enough from 
there. The problem is not just the standing amount of mercury 
that we are using, but that in the last decade, there has been 
an enormous shift in where and how that mercury is being used. 
So that in the older days, we in the United States were still 
using mercury, the Western European countries were still using 
lots of mercury. That mercury was, for the most part, much more 
carefully managed than the mercury being used in the developing 
world today. In my testimony, I have a figure, figure 2, that 
shows for one typical year the flow of mercury which is 
basically from the industrialized world to the developing 
world, as the industrialized world has gotten rid of its 
dangerous mercury uses.
    The largest percentage of this mercury goes into that 
practice of artisanal mining that has already been the focus of 
both opening statements, and also some of our witnesses today, 
and I just want to emphasize for you how very dangerous that 
practice is. It is more than roughly a third of the global 
mercury use. It is being used by the poorest people of the 
world, people who have no other means of support. They are 
grossly intoxicating themselves with mercury, such that they 
usually can't do this work for very many years of their life 
because they have become intoxicated, and it is throwing 1,000 
tons of mercury a year, almost all they use, into the air and 
into the global food supply. As has already been mentioned by 
several representatives, UNIDO, which has been in the lead on 
this problem, has called for an export ban as the single-most 
important thing that the world could do in order to reduce this 
practice.
    [The prepared statement of Ms. Greer follows:]
    [GRAPHIC] [TIFF OMITTED] 43289.007
    
    [GRAPHIC] [TIFF OMITTED] 43289.008
    
    [GRAPHIC] [TIFF OMITTED] 43289.009
    
    [GRAPHIC] [TIFF OMITTED] 43289.010
    
    [GRAPHIC] [TIFF OMITTED] 43289.011
    
    [GRAPHIC] [TIFF OMITTED] 43289.012
    
    [GRAPHIC] [TIFF OMITTED] 43289.013
    
    [GRAPHIC] [TIFF OMITTED] 43289.014
    
    [GRAPHIC] [TIFF OMITTED] 43289.015
    
    [GRAPHIC] [TIFF OMITTED] 43289.016
    
    [GRAPHIC] [TIFF OMITTED] 43289.017
    
    [GRAPHIC] [TIFF OMITTED] 43289.018
    
    [GRAPHIC] [TIFF OMITTED] 43289.019
    
    [GRAPHIC] [TIFF OMITTED] 43289.020
    
    [GRAPHIC] [TIFF OMITTED] 43289.021
    
    [GRAPHIC] [TIFF OMITTED] 43289.022
    
    [GRAPHIC] [TIFF OMITTED] 43289.023
    
    [GRAPHIC] [TIFF OMITTED] 43289.024
    
    [GRAPHIC] [TIFF OMITTED] 43289.025
    
    [GRAPHIC] [TIFF OMITTED] 43289.026
    
    [GRAPHIC] [TIFF OMITTED] 43289.027
    
    [GRAPHIC] [TIFF OMITTED] 43289.028
    
    [GRAPHIC] [TIFF OMITTED] 43289.029
    
    [GRAPHIC] [TIFF OMITTED] 43289.030
    
    [GRAPHIC] [TIFF OMITTED] 43289.031
    
    [GRAPHIC] [TIFF OMITTED] 43289.032
    
    [GRAPHIC] [TIFF OMITTED] 43289.033
    
    [GRAPHIC] [TIFF OMITTED] 43289.034
    
    [GRAPHIC] [TIFF OMITTED] 43289.035
    
    [GRAPHIC] [TIFF OMITTED] 43289.036
    
    [GRAPHIC] [TIFF OMITTED] 43289.037
    
    [GRAPHIC] [TIFF OMITTED] 43289.038
    
    [GRAPHIC] [TIFF OMITTED] 43289.039
    
    [GRAPHIC] [TIFF OMITTED] 43289.040
    
    [GRAPHIC] [TIFF OMITTED] 43289.041
    
    [GRAPHIC] [TIFF OMITTED] 43289.042
    
    [GRAPHIC] [TIFF OMITTED] 43289.043
    
    [GRAPHIC] [TIFF OMITTED] 43289.044
    
    [GRAPHIC] [TIFF OMITTED] 43289.045
    
    [GRAPHIC] [TIFF OMITTED] 43289.046
    
    [GRAPHIC] [TIFF OMITTED] 43289.047
    
    [GRAPHIC] [TIFF OMITTED] 43289.048
    
    [GRAPHIC] [TIFF OMITTED] 43289.049
    
    [GRAPHIC] [TIFF OMITTED] 43289.050
    
    [GRAPHIC] [TIFF OMITTED] 43289.051
    
    Mr. Wynn. Thank you very much, Dr. Greer.
    Dr. Shannon.

    STATEMENT OF MICHAEL SHANNON, M.D., CHAIR, COMMITTEE ON 
   ENVIRONMENTAL HEALTH, AMERICAN ASSOCIATION OF PEDIATRICS; 
PROFESSOR AND CHAIR, DIVISION OF EMERGENCY MEDICINE, CHILDREN'S 
                      HOSPITAL, BOSTON, MA

    Dr. Shannon. Thank you and good morning. I appreciate the 
opportunity to testify today before the Energy and Commerce 
Subcommittee on Environment and Hazardous Materials at this 
hearing, H.R. 1534, the Mercury Export Ban Act of 2007. My name 
is Dr. Michael Shannon, and I am proud to represent the 
American Academy of Pediatrics, a nonprofit professional 
organization of 60,000 primary care pediatricians, pediatric 
medical subspecialists, and pediatric surgical subspecialists 
dedicated to the health, safety, and well-being of infants, 
children, adolescents, and young adults. I am chair of the 
Academy's Committee on Environmental Health. I am Chief of 
Emergency Medicine, and co-director of the Pediatric 
Environmental Health Program at Children's Hospital, Boston. I 
am a professor of pediatrics at Harvard Medical School. My 
Board certifications include pediatrics, emergency medicine, 
and medical toxicology. I have been a pediatrician for 30 
years.
    Mercury is a ubiquitous environmental toxin that is capable 
of causing a wide range of adverse health effects in humans. 
The AAP's Committee on Environmental Health describes the 
dangers of mercury in the environment to children in a 2001 
technical report of which I was the lead author.
    Elemental mercury is one of the three forms of this 
substance, the other two being organic mercury and inorganic 
mercury. The elemental form, as you know, is generally liquid 
at room temperature. When heated, however, elemental mercury 
becomes a vapor. This vapor has the ability to contaminate 
large geographic areas, affecting all of those nearby. In the 
United States, the largest source of atmospheric mercury vapor 
is from burning fossil fuels, especially high sulfur coal. 
Other major sources include chloralkali production, a process 
that uses elemental mercury to produce chlorine, bleach, and 
other products, mercury mining, and waste incinerators, 
especially those that incinerate medical waste.
    Elemental mercury in liquid form is found in thermometers, 
barometers, and other medical instruments. Indiscriminate 
disposal of medical devices is a major source of environmental 
mercury contamination when they are buried in landfills or 
burned in waste incinerators, rather than recycled. 
Fortunately, our efforts to eliminate elemental mercury from 
medical devices has been successful in reducing human exposure 
from this source.
    As I mentioned, when heated, elemental mercury rapidly 
vaporizes. Once we inhale it, mercury vapor easily passes 
through the membranes of our lungs, entering the bloodstream 
where it is then primarily distributed into the central nervous 
system and the kidneys. Circulating elemental mercury also 
crosses the placenta and concentrates in the fetus. In adults, 
the half life of mercury, that is, the amount it takes for the 
body to eliminate one-half of the metal, is as long as 90 days.
    Elemental mercury poisoning can produce a broad range of 
effects on the central nervous system, kidneys, skin, and 
lungs. In children, elemental mercury is particularly 
deleterious because of its effects on the rapidly developing 
brain of the child. Children exposed to elemental mercury can 
develop a range of neurocognitive and behavioral effects 
ranging from learning disabilities to devastating neurologic 
problems, including mental retardation, blindness, and 
spasticity.
    History has provided us several important lessons of the 
consequences of severe mercury exposure to children. One 
example is the Minamata Bay incident in the 1950s. At that 
time, a coastal factory discharged large amounts of mercury 
compound into the bay. That mercury was taken up by local fish, 
which was routinely eaten by nearby villagers. An epidemic of 
childhood disease manifested by blindness and spasticity 
appeared among the offspring of women who ate the contaminated 
fish while pregnant. Ultimately, there were 41 deaths and at 
least 30 cases of severe brain damage in these infants.
    There also continue to be case reports describing the 
development of severe mercury poisoning in children and adults 
as a result of mercury spills and even mercury thermometers 
breaking with the mercury being vacuumed or spilling into a 
heating duct. This is rare, but continues to show us how toxic 
this element can be.
    Because elemental mercury that enters the blood, central 
nervous system, and kidneys is so slowly eliminated, toxicity 
can be prolonged. Given that treatment options for mercury 
intoxication are inadequate, prevention of exposure is the 
cornerstone of avoiding long-term health consequences.
    In conclusion, the American Academy of Pediatrics commends 
you, Mr. Chairman, for holding this hearing today and calling 
attention to the hazards of elemental mercury. We look forward 
to working with Congress to minimize the exposure of children 
and all Americans to potentially toxic levels of mercury. I 
appreciate this opportunity to testify, and I will be pleased 
to answer any questions you may have.
    [The prepared statement of Dr. Shannon follows:]

              Testimony of Michael Shannon, MD, MPH, FAAP

    Good morning. I appreciate this opportunity to testify 
today before the Energy and Commerce Subcommittee on 
Environment and Hazardous Materials at this hearing, H.R. 1534, 
the Mercury Export Ban Act of 2007. My name is Michael Shannon, 
MD, MPH, FAAP, and I am proud to represent the American Academy 
of Pediatrics (AAP), a non-profit professional organization of 
60,000 primary care pediatricians, pediatric medical sub-
specialists, and pediatric surgical specialists dedicated to 
the health, safety, and well-being of infants, children, 
adolescents, and young adults. I am Chair of the AAP's 
Committee on Environmental Health. I am Chief of the Division 
of Emergency Medicine and Co-Director of the Pediatric 
Environmental Health Center at Boston Children's Hospital. I am 
also a Professor of Pediatrics at Harvard Medical School. My 
board certifications are in General Pediatrics, Emergency 
Medicine, Pediatric Emergency Medicine and Medical Toxicology.

      Elemental Mercury Poses a Serious Health Hazard to Children

    Mercury is a ubiquitous environmental toxin that is capable 
of causing a wide range of adverse health effects in humans. 
The AAP's Committee on Environmental Health described the 
dangers of mercury in the environment to children in a 2001 
technical report, of which I was a lead author.
    Elemental mercury is one of the three forms of this 
substance, the other two being organic mercury and inorganic 
mercury. The elemental form is liquid at room temperature. When 
heated, elemental mercury becomes a vapor; this vapor has the 
ability to contaminate large geographic areas, affecting all of 
those nearby. In the United States, the largest source of 
atmospheric mercury vapor is from burning fossil fuels, 
especially high-sulfur coal. Other major sources include 
chloralkali production (a process that uses elemental mercury 
to produce chlorine, bleach, and other products), mercury 
mining, and waste incinerators (especially those that 
incinerate medical wastes). Elemental mercury in liquid form is 
found in thermometers, barometers, and other medical 
instruments. Indiscriminate disposal of medical devices is a 
major source of environmental mercury contamination when they 
are buried in landfills or burned in waste incinerators rather 
than recycled. Fortunately, recent efforts to eliminate 
elemental mercury from medical devices have been successful in 
reducing human exposure from this source. \1\
---------------------------------------------------------------------------
    1 Goldman LR, Shannon MW, and the AAP Committee on Environmental 
Health. Technical Report: Mercury in the Environment: Implications for 
Pediatricians. Pediatrics, 2001 108: 197-205.
---------------------------------------------------------------------------
    Elemental mercury readily vaporizes in the presence of 
heat. When inhaled, mercury vapor easily passes through the 
membranes of the lung, entering the bloodstream, where it is 
then distributed primarily into the central nervous system 
(CNS), and the kidneys. Circulating elemental mercury also 
crosses the placenta and concentrates in the fetus. In adults, 
the half-life of elemental mercury, that is, the amount of time 
it takes for the body to eliminate one-half of the metal, is as 
long as 90 days. \2\
---------------------------------------------------------------------------
    2 Ibid.
---------------------------------------------------------------------------
    Elemental mercury poisoning can produce a broad range of 
effects on the central nervous system, kidneys, skin and lungs. 
In children, elemental mercury is particularly deleterious 
because of its affects on the rapidly developing brain of the 
child. Children exposed to elemental mercury can develop a 
range of neurocognitive and behavioral effects, ranging from 
learning disabilities to devastating neurologic problems 
including mental retardation, blindness and spasticity. \3\
---------------------------------------------------------------------------
    3 Speaking Points for Mercury in the Environment: Implications for 
Pediatricians, http://www.aap.org/moc/pressroom/speaking--points/
mercury.htm?CFID=1395517&CFTOKEN=64233499. 
---------------------------------------------------------------------------
    History has provided us several important lessons of the 
consequences of severe mercury exposure to children. One 
example is the Minamata Bay incident which took place in Japan 
in the 1950's. A coastal factory discharged large quantities of 
mercury compounds into the bay. That mercury was taken up by 
local fish which was routinely eaten by nearby villagers. An 
epidemic of disease, manifested by blindness and spasticity 
appeared among the offspring of the women who ate the 
contaminated fish while pregnant. Ultimately, there were 41 
deaths and at least 30 cases of severe brain damage in these 
infants. There also continue to be case reports describing the 
development of symptomatic mercury poisoning in children and 
adults as a result of mercury spills and even mercury 
thermometers breaking, with the mercury bead being vacuumed or 
spilling into a heating duct. This is rare, but continues to 
show us how toxic this element can be. \4\
---------------------------------------------------------------------------
    4 Ibid.
---------------------------------------------------------------------------
    Because the elemental mercury that enters the blood, CNS, 
and renal tissues and is so slowly eliminated, toxicity can be 
prolonged. Given that treatment options for mercury 
intoxication are inadequate, prevention of exposure is the 
cornerstone of avoiding long-term health consequences.

                            Recommendations

    The American Academy of Pediatrics recognizes that 
elemental mercury is toxic to the fetus and to children, and 
recommends that aggressive efforts should be made to reduce 
exposure for pregnant women and children as well as the general 
population.

    <bullet> Efforts should be made to decrease the amount of 
elemental mercury in the waste stream by continuing the phase-
out of mercury-containing devices. Families should be 
encouraged to remove mercury thermometers from their homes.
    <bullet> Elemental mercury should not be present in the 
home or other environments of children. Public health agencies, 
community organizations, pediatricians, and other child health 
providers should work together to identify and address the 
factors that may lead to elemental mercury exposure.

                               Conclusion

    The American Academy of Pediatrics commends you, Mr. 
Chairman, for holding this hearing today to call attention to 
the hazards of elemental mercury. We look forward to working 
with Congress to minimize the exposure of children and all 
Americans to potentially toxic levels of elemental mercury. I 
appreciate this opportunity to testify, and I will be pleased 
to answer any questions you may have.
                              ----------                              

    Mr. Wynn. Thank you very much, Dr. Shannon.
    Dr. Smith.

STATEMENT OF C. MARK SMITH, DEPUTY DIRECTOR, OFFICE OF RESEARCH 
  AND STANDARDS; DIRECTOR, MASSACHUSETTS MERCURY PROGRAM; CO-
  CHAIR, NEW ENGLAND GOVERNORS AND EASTERN CANADIAN PREMIERS 
     MERCURY TASK FORCE; QUICKSILVER CAUCUS, MASSACHUSETTS 
                   REPRESENTATIVE, BOSTON, MA

    Mr. Smith. Good afternoon Chairman Wynn and members of the 
committee. I would like to thank you all for providing the 
Environmental Council of States and the Quicksilver Caucus with 
the opportunity to testify today on this important issue.
    As you may be aware, the Environmental Council of States is 
a nonpartisan, nonprofit organization that is comprised of the 
leaders of the State environmental agencies. It has been 
involved in dealing with mercury issues for many years. The 
Quicksilver Caucus is a coalition of interstate organizations 
dealing specifically with mercury, and the interstate 
organizations represent air, water, and solid waste pollution 
prevention organizations from across the country.
    My name is Mark Smith and I am testifying today for ECOS 
and the Quicksilver Caucus on behalf of Arleen O'Donnell, who 
is the acting commissioner for the Massachusetts Department of 
Environmental Protection and is the Chair of the ECOS cross 
media committee. Unfortunately, Arleen could not be here today.
    My background, just for a quick review, is that I have a 
Ph.D. in molecular toxicology and a master's degree in 
environmental health management. I currently direct the 
Massachusetts Mercury Reduction Program; was a founding member 
and currently co-chair the New England Governors and Eastern 
Canadian Premiers Mercury Task Force. I have also been the 
Massachusetts representative to the Quicksilver Caucus since 
its inception.
    As you have heard, mercury is a very important issue for 
the States. We have heard that there are 44 States that have 
fish consumption advisories in effect. Just to put that in 
perspective, that amounts to tens of thousands of water bodies 
across the country, impacting close to 13 million lake acres 
and 760,000 river miles. This is a really big problem for the 
States. Monitoring by the Centers for Disease Control also 
indicates that several hundred thousand newborns each year are 
being exposed to excessive amounts of mercury, primarily 
through their mothers' consumption of contaminated fish, fish 
that have unacceptably high levels of mercury.
    As the father of a son who loves to fish, and even likes to 
eat them on occasion, this is personally an important issue as 
well. It is really a sad state of affairs when we have to tell 
our children that the fish they just caught is not safe to eat 
because it is contaminated with mercury, which is something I 
just had to do last week. We actually did catch a few fish on a 
trip we were on. It doesn't happen frequently, but sometimes it 
does.
    Because of the extent and seriousness of the problem, over 
22 States are developing or implementing State-specific action 
plans to address mercury. Overall, these efforts have been very 
successful. For example, in my State, and as we have heard, in 
the State of Maine, mercury reductions in the order of 70 to 80 
percent have occurred over the past decade or so, as we have 
been implementing State and regional action plans to address 
mercury. Similar reductions are happening in many other States 
across the country.
    Of significance to this hearing, mercury product 
legislation is being adopted in many States, which is reducing 
the demand for mercury, elemental mercury, by reducing 
unnecessary uses and phasing them out. At the same time, State 
recycling programs designed to reduce releases of mercury from 
end-of-life products and to prevent costly spills of mercury 
are also increasing, resulting in increasing supplies of 
commodity mercury here in the United States.
    Because global sources have been found to contribute 
significantly to mercury deposition in our States and because 
many States have these programs to recycle mercury, ECOS and 
the Quicksilver Caucus have had a longstanding interest in the 
management of commodity mercury. To minimize the potential for 
mercury releases on the global scale, ECOS, beginning in 1996, 
has consistently called for the cessation of sales of U.S. 
mercury stockpiles and urged those to be permanently stored; 
has urged nations to end subsidies to mercury mining; and urged 
U.S. EPA to develop a retirement option for the long-term 
sequestration of excess mercury. Most recently, the Quicksilver 
Caucus developed 14 principles that articulate the views of 
ECOS, the National Governors Association, and the Quicksilver 
Caucus regarding the use and management of elemental mercury in 
an environmentally sound manner. These principles include 
provisions designed to reduce unnecessary uses of mercury, 
restrict mercury exports, and safely store excess mercury.
    Of most relevance to today's discussion, the principles 
specifically call for a prohibition on the export of elemental 
mercury to developing countries where the resulting uses can 
result in unsafe exposures, and also call on the U.S. to cease 
the export of elemental mercury except for a very limited 
number of essential uses where it can be demonstrated that the 
receiving country does not have sufficient domestic sources of 
its own secondary mercury. The QSC principles would allow for 
potential exemptions from the suggested export restrictions for 
essential uses under a quite limited set of circumstances.
    It is our position that decisions on these issues should be 
made by knowledgeable experts using an appropriate and 
transparent Federal process. The creation of a national 
committee as called for in the Quicksilver Caucus principles 
is, I think, the ideal and logical place for decisions to be 
made as to whether a particular use is essential and whether an 
exemption should be allowed.
    To conclude, I would again like to thank the committee for 
this opportunity to speak on this issue, and I am available to 
answer any questions that you may have.
    Thank you.
    [The prepared statement of Mr. Smith follows:]

                        Testimony C. Mark Smith

     Thank you, Mr. Chairman and members of the Committee, for 
providing the Environmental Council of the States (ECOS) the 
opportunity to present testimony on the States Perspectives on 
Managing Commodity Grade Elemental Mercury. My name is C. Mark 
Smith and I am testifying on behalf of Arleen O'Donnell, the 
Acting Commissioner for Massachusetts Department of 
Environmental Protection and the Chair of the ECOS Cross-media 
Committee. I have been involved in mercury policy and research 
for over 15 years and have been the Massachusetts 
representative to the Quicksilver Caucus since its inception. 
Currently I direct my agency's multimedia mercury program and 
Co-chair the New England Governors and Eastern Canadian 
Premiers Regional Mercury Task Force.
     The Environmental Council of States is the national non-
partisan, non-profit association of the leaders of state 
environmental agencies. Our members are the officials who 
manage and direct the environmental agencies in the States and 
territories. They are the state leaders responsible for making 
certain our Nation's air, water and natural resources are 
clean, safe and protected.
    Today I am here representing not only my own state, but 
also as a voice for all the environmental agencies in the 
states belonging to our organization and to the Quicksilver 
Caucus.
     The Quicksilver Caucus, formed in May 2001 by a coalition 
of State environmental association leaders to collaboratively 
develop holistic approaches for reducing mercury in the 
environment. Caucus members who share mercury-related technical 
and policy information include the Environmental Council of the 
States (ECOS), the Association of State and Territorial Solid 
Waste Management Officials (ASTSWMO), the National Association 
of Clean Air Agencies (NACAA), the Association of State and 
Interstate Water Pollution Control Administrators (ASIWPCA), 
the Association of State Drinking Water Administrators (ASDWA) 
and the National Pollution Prevention Roundtable (NPPR). The 
Quicksilver Caucus' long-term goal is that State, Federal, and 
International actions effectively address mercury pollution.
     Mercury is a public health and environmental health 
problem across the country and the globe. Environmental 
monitoring over the past two decades has demonstrated that 
mercury levels in fish from states across the United States are 
too high. As a result, as of 2004, 44 States had fish 
consumption advisories in effect because of mercury, affecting 
over 13 million lake acres and 767,000 river miles. National 
advisories for saltwater fish, such as shark, tuna and 
swordfish, are also in effect.
    Mercury is such a concern because it is a potent brain 
toxin that adversely affects children and wildlife. Once 
released into the environment mercury persists and does not 
break down into harmless components like many other pollutants. 
It also bio-accumulates, or concentrates, into fish which, when 
eaten, are the major pathway for human exposures to this toxin. 
Although mercury is a natural element, due to human activities, 
the level of this toxin in the environment is much higher today 
than it was 150 years ago--for example mercury levels in 
sediments from many New England and Minnesota lakes were found 
to range from 150 percent - 800 percent higher now compared to 
pre-industrial times.
     The brain and developing neurological system of the fetus 
and children are particularly sensitive to mercury and can be 
damaged by fairly low levels of exposure. Of particular concern 
is the fact that children can be exposed to toxic amounts of 
this pollutant before birth because mercury in a mothers' diet 
crosses the placenta and enters the fetus. Based on data from 
the U.S. Centers for Disease Control, which has measured 
mercury levels in the blood of women across the country, 
several hundred thousand newborns each year are at risk of 
mercury toxicity in the U.S. because of their mother's exposure 
to mercury. Based on this data over 8,000 newborns are at risk 
each year in my state alone.
     Because of its chemical properties mercury pollution knows 
no borders as it can be transported long distances in the 
atmosphere, creating trans-boundary issues that are regional, 
national and global in scope. Mercury is also a multimedia 
pollutant that can readily transfer between air, water and 
soils. Effectively reducing mercury levels in our state 
environments therefore requires effective multimedia programs 
at the regional, national and international level.Because the 
states are being impacted so significantly by mercury pollution 
and deposition, reducing sources of mercury releases at the 
national and international levels is a priority for us.
     To minimize the potential for mercury releases, ECOS and 
the Quicksilver Caucus have had a long-standing interest in the 
management of commodity mercury. ECOS, beginning in September 
1996, has consistently stated its opposition to future U.S. 
mercury stockpile sales and called for a permanent halt to any 
such sales; called on the United States Department of Defense, 
the United States Department of Energy, and the U.S. 
Environmental Protection Agency to research and evaluate long 
term management, retirement and substitution options in 
cooperation with interested parties; urged all nations to end 
subsidies to mercury mining and sales; and urged USEPA to 
develop retirement options for mercury so that waste generators 
and waste treatment facilities may choose recycling or 
retirement.
     In addition many states have adopted mercury products 
legislation to reduce mercury use and increase the recycling of 
mercury from remaining uses. Numerous states are also 
implementing extensive mercury collection and recycling 
programs, which are contributing to the excess U.S. supply of 
commodity elemental mercury. Exports of mercury concern the 
states because poorly regulated uses in other countries can 
result in direct exposures to their citizens and contribute 
significantly to overall global mercury releases to the 
environment and resulting impacts on our states.
     The Quicksilver Caucus recently developed 14 principles 
that encompass the environmental position on elemental 
commodity mercury of the Environmental Council of States, the 
National Governor's Association and state associations 
representing air, water, waste, and pollution prevention. These 
principles articulate states perspectives for the development 
of comprehensive and effective management of elemental mercury 
in an environmentally secure manner at the local, state, 
national, and international level.
     These principles are presented in their entirety below and 
include a number of provisions to: reduce the unnecessary use 
of mercury (principles Nos. 1, 2, 3, and 11); restrict mercury 
export (principles Nos.6, 8 and 9); and safely store excess 
mercury (principles Nos. 6 and 10). The principles specifically 
call for a prohibition on the export of elemental mercury to 
developing countries where the resulting uses can result in 
unsafe exposures. The principles also call on the U.S. to cease 
the export of elemental mercury, except for a limited number of 
essential uses where it can be demonstrated that the receiving 
country does not have sufficient domestic sources of its own 
secondary mercury. The QSC could only identify a small number 
of essential uses, including fluorescent lighting, some dental 
amalgam applications and, potentially, a select few scientific 
pieces of equipment. These are noted in principle No. 3. 
Although other essential uses were not precluded, the QSC 
believes that these, if they exist, are likely to be very few 
in number and will likely decrease in the future as mercury-
free alternatives are developed. The QSC principles would allow 
for limited exemptions from the suggested export restrictions 
for such essential uses provided they meet the other criteria 
stipulated in principle No. 8. Decisions on these issues should 
be made by knowledgeable experts using an appropriate and 
transparent Federal process. The creation of a National 
Advisory Committee, as called for in principle No. 13 to 
develop recommendations for action, would provide a logical 
place for decisions to be made regarding the specific criteria 
and process to determine which mercury uses are essential and 
whether exemptions should be allowed in a particular situation.
    The complete set of principles state that:

     (1) The manufacture and sale of non-essential uses of 
mercury-added products should be phased out in the long-term. 
Several mercury-added products can be phased-out in the next 
three to five years including most uses of thermometers, 
manometers, thermostats, switches, relays and novelty items.
     (2) The best opportunities for achieving this goal will be 
to aggressively pursue multi-stakeholder partnerships, educate 
consumers and businesses and leverage Federal and state 
environmental laws and regulations to accelerate such a 
reduction.
     (3) Reuse of elemental mercury should only be utilized in 
processes or products deemed essential. Few essential uses 
remain, but include fluorescent and compact fluorescent lamps, 
some restorations with dental amalgam, and perhaps a select few 
scientific pieces of equipment. For those uses of mercury that 
continue, capture and recycling of mercury-containing products 
at the end of their useful life should be required.
      (a) The United National Environment Programme estimates 
that globally, use of mercury in lamps and dentistry represent 
less than 15 percent of total uses, or even as little as 9 
percent. Research should be conducted to determine whether 
there are any countries that do not have sufficient domestic 
sources of secondary (recycled) mercury for these purposes.
      (b) Federal and state governments should work with 
manufacturers to ensure adequate nationwide infrastructure 
exists for safe collection, storage and disposal of used 
mercury-containing lamps and other products through a product 
stewardship framework. This infrastructure should provide 
flexibility for States to maintain and to continue to develop, 
and implement their own strategies or regulatory programs.
      (c) Research should be supported to find safe 
alternatives to elemental mercury in those products deemed 
essential.
    (4) Research should also be conducted on the use and export 
of mercury compounds, including such mercury compounds as 
mercuric chloride and mercuric oxide, and in finding safe 
alternatives.
    (5) States and the Federal Government should continue to 
work with manufacturing sectors to address current and legacy 
uses of mercury in the manufacturing process (e.g., working 
with the chlor-alkali manufacturers to identify alternatives to 
mercury cell technology and where feasible, phasing out the use 
of the ``mercury cell'' manufacturing process).
    (6) Following the collection and recycling (retorting) of 
used mercury-containing products, the mercury should be 
sequestered and safely stored within the United States.
    (7) The United States should support mechanisms to better 
track international trade of mercury, mercury compounds, and 
mercury-containing products.
    (8) The United States should be a leader in proper use and 
management of elemental mercury by not exporting any mercury-
containing products to other countries unless it is related to 
an essential use. Exporting surplus elemental mercury to 
developing countries where it can result in unsafe exposure 
should be prohibited. Elemental mercury should only be exported 
to other countries for essential uses where it can be 
demonstrated that the country does not have sufficient domestic 
sources of secondary (recycled) mercury.
     (9) The United States should prohibit imports of elemental 
mercury and mercury-containing products, unless the import is 
for sequestration.
     (10) Until a safe disposal technique is developed, 
temporary storage of elemental mercury should be in a safe, 
secure, continuously monitored location. Industries that 
generate significant amounts of elemental mercury should be 
responsible for the storage of their own mercury until a long-
term solution in the United States is identified and 
implemented. Additionally, long-term Federal research seeking 
ways to permanently and safely dispose of elemental mercury 
should be supported.
     (11) The United States should assist other countries in 
phasing out uses and applications of mercury and help them 
identify safe storage techniques to use for their mercury 
stockpiles until a long-term solution is identified and 
implemented.
    (12) The USEPA and states need to work together to track 
changes in the use of mercury-added products to measure the 
sources and amount of mercury that is collected. This needs to 
be correlated with (a) monitoring the releases of mercury to 
air, water, and land and (b) monitoring of fish tissue.
    (13) The Congress or the President should establish a 
National Advisory Committee to develop a comprehensive report 
that incorporates the principles set forth in this document and 
make recommendations for action by governments, industry, 
academia, and citizens and a time table for doing so.
     (14) The Federal Government should ensure that there is 
adequate funding to support the above mercury reduction 
activities at the Federal, state, and local community levels of 
government as appropriate.

     The QSC states hope that you consider using these 
principles as you develop the proposed legislation.
     In conclusion, the states urge that:

    <bullet> National elemental mercury stockpiles should not 
be sold but should continue to be safely stored;
    <bullet> National and international strategies to address 
commodity elemental mercury production, use and ``retirement'' 
should be developed and implemented;
    <bullet> Elemental mercury in excess of that needed for 
essential uses should be sequestered;
    <bullet> The Federal Government should take responsibility 
for safely sequestering commodity mercury;
    <bullet> National strategies/ programs addressing commodity 
elemental mercury should be developed in consultation with the 
States.

     To end, I would also like to provide an additional 
perspective on this issue from the standpoint of Massachusetts. 
The Commonwealth of Massachusetts has been significantly 
impacted by mercury pollution and has been very actively 
engaged in mercury reduction issues. In MA, over 50 percent of 
the water-bodies tested in the state have one or more species 
of fish with sufficiently high levels of mercury to warrant a 
consumption advisory and our state Department of Public Health 
warns pregnant women, children and nursing mothers to avoid 
consuming any native freshwater fish caught in the State 
(http://www.mass.gov/Eeohhs2/docs/dph/environmental/exposure/
fish--mercury--in--ma.pdf; http://db.state.ma.us/dph/
fishadvisory/). In ``mercury hotspot'' areas like the northeast 
part of MA and southern New Hampshire, close to 100 percent of 
the tested water bodies have fish with elevated mercury levels 
(http://mass.gov/dep/images/fishmerc.doc). We have recently 
estimated that mercury deposition will need to be reduced by 
86-98 percent to achieve water quality objectives in relation 
to mercury levels in freshwater fish in the Northeast states. 
Such steep reductions cannot be achieved without significant 
reductions from national and international sources. In fact, 
mercury deposition modeling results from USEPA and other 
research groups indicate that a large fraction, ranging from 
about 60 percent to over 80 percent, of all mercury deposited 
in the U.S. comes from global sources. A ban on the export of 
U.S. elemental commodity mercury would be an important step 
that the U.S. could take to address the international sources 
of mercury emissions that impact waters of the U.S. Provisions 
can be added to the legislation to address unlikely but 
possible scenarios such as the need for essential uses of 
mercury that cannot be met without tapping U.S. mercury 
stockpiles.
     Thank you for the opportunity to testify.
                              ----------                              

    Mr. Wynn. Thank you very much, Dr. Smith.
    We will now hear from Mr. Dungan.

    STATEMENT OF ARTHUR E. DUNGAN, PRESIDENT, THE CHLORINE 
             INSTITUTE, INCORPORATED, ARLINGTON, VA

    Mr. Dungan. Mr. Chairman, Congressman Shimkus, and members 
of the subcommittee, I am Art Dungan, president of the Chlorine 
Institute. I appreciate the opportunity to testify before you 
concerning the Mercury Export Ban Act of 2007, and the 
advisability of establishing a Federal stockpile for mercury.
    In the United States, there are currently seven facilities 
that produce chlorine using the mercury cell process. All are 
members of the Chlorine Institute. Two of these facilities have 
announced their intention to close or to convert to another 
technology by the end of 2008. We believe the remaining plants 
can continue to operate until the end of their economic life in 
a manner that is fully protective of human health and the 
environment, and in compliance with all regulatory 
requirements.
    The Chlorine Institute and the chloralkali producers using 
the mercury cell technology have worked aggressively and 
voluntarily to reduce mercury use and releases to the 
environment, and have worked cooperatively with all agencies as 
they set regulatory standards limiting such releases.
     In 1996, the Chlorine Institute and the mercury cell 
producers voluntarily agreed to reduce mercury use by 50 
percent. As indicated in our ninth annual report to EPA, the 
overall reduction in annual mercury usage in the ninth year was 
94 percent.
    The Mercury Export Ban Act of 2007 has two main provisions. 
These are the prohibition on export of mercury, and the 
establishment of an excess mercury storage advisory committee. 
It is premature to establish a ban on mercury exports until the 
United States has a program established and in place for the 
permanent storage of mercury and coordinated with international 
groups to ensure that the reduced supply of mercury from 
countries such as the United States does not result in the 
expansion of existing or the opening of new primary mercury 
mines elsewhere in the world to meet the demand. If the goal of 
the mercury export ban is to reduce mercury use and indirectly 
mercury releases to the environment, a ban established before 
international action to reduce mercury use is implemented, will 
have the opposite effect.
    The Institute supports the establishment of an excess 
mercury storage advisory committee to address issues related to 
surplus mercury. The Institute was also asked to address the 
advisability of establishing a Federal stockpile for mercury. 
For more than 5 years, the Institute has publicly supported the 
establishment of such a Federal stockpile. The Department of 
Defense Logistics has safely stored mercury for more than 50 
years.
    Earlier this decade, the DLA undertook a very public 
process to examine how the long-term storage of its surplus 
mercury should be addressed. The conclusion was that mercury 
could continue to be safely stored for a long-term period by 
the DLA. The Institute does not believe that any viable 
alternative exists to the storage program being implemented by 
the DLA. The Chlorine Institute recognizes that is beyond the 
current mission of the DLA to manage the long-term storage of 
all surplus mercury generated in the United States. However, 
the Institute believes it would be sound public policy for the 
U.S. Government to manage all the surplus mercury in a safe and 
environmentally friendly way, as is being done by the DLA.
    In conclusion, the Institute is opposed to the prohibition 
on the export of mercury, because it is premature to establish 
such a ban until the United States has a program established 
and in place for the permanent storage of mercury. The 
Institute supports the establishment of an excess mercury 
storage advisory committee. The Institute supports the 
establishment of a Federal stockpile for mercury.
    I thank you again for the opportunity to appear before the 
committee and share the Chlorine Institute's views.
    [The prepared statement of Mr. Dungan follows:]
    [GRAPHIC] [TIFF OMITTED] 43289.052
    
    [GRAPHIC] [TIFF OMITTED] 43289.053
    
    [GRAPHIC] [TIFF OMITTED] 43289.054
    
    [GRAPHIC] [TIFF OMITTED] 43289.055
    
    [GRAPHIC] [TIFF OMITTED] 43289.056
    
    [GRAPHIC] [TIFF OMITTED] 43289.057
    
    [GRAPHIC] [TIFF OMITTED] 43289.058
    
    [GRAPHIC] [TIFF OMITTED] 43289.059
    
    [GRAPHIC] [TIFF OMITTED] 43289.060
    
    [GRAPHIC] [TIFF OMITTED] 43289.061
    
    [GRAPHIC] [TIFF OMITTED] 43289.062
    
    [GRAPHIC] [TIFF OMITTED] 43289.063
    
    [GRAPHIC] [TIFF OMITTED] 43289.064
    
    [GRAPHIC] [TIFF OMITTED] 43289.065
    
    [GRAPHIC] [TIFF OMITTED] 43289.066
    
    [GRAPHIC] [TIFF OMITTED] 43289.067
    
    [GRAPHIC] [TIFF OMITTED] 43289.068
    
    [GRAPHIC] [TIFF OMITTED] 43289.069
    
    [GRAPHIC] [TIFF OMITTED] 43289.070
    
    [GRAPHIC] [TIFF OMITTED] 43289.071
    
    [GRAPHIC] [TIFF OMITTED] 43289.072
    
    [GRAPHIC] [TIFF OMITTED] 43289.073
    
    [GRAPHIC] [TIFF OMITTED] 43289.074
    
    [GRAPHIC] [TIFF OMITTED] 43289.075
    
    [GRAPHIC] [TIFF OMITTED] 43289.076
    
    [GRAPHIC] [TIFF OMITTED] 43289.077
    
    [GRAPHIC] [TIFF OMITTED] 43289.078
    
    Mr. Wynn. Thank you very much, Mr. Dungan.
    At this time, Mr. Lawrence, we would love to hear from you.

  STATEMENT OF BRUCE LAWRENCE, PRESIDENT, BETHLEHEM APPARATUS 
             COMPANY, INCORPORATED, HELLERTOWN, PA

    Mr. Lawrence. Thank you, Mr. Chairman and members of the 
committee.
    In my opinion, it is not advisable to establish a Federal 
stockpile for mercury. The result would be that more mercury 
air emissions will occur by the removal of secondary mercury 
from the international market.
    The world consumes approximately 2,000 tons of mercury per 
year. Of this, roughly 50 percent or 1,000 tons is provided by 
virgin mercury mining. Reports indicate that virgin mercury 
mining will lose approximately 4 percent of their production to 
air emissions. That makes 40 tons of mercury pollution 
annually. Virgin mercury mining occurs in China and Kyrgyzstan. 
The markets in both China and Kyrgyzstan have shown that they 
will purchase secondary mercury to offset their mining 
production. If the United States were to encourage the sale of 
mercury from caustic soda plants and from the U.S. Government 
stockpiles, then the world would be relieved of the 40 tons of 
mercury pollution annually.
    An export ban on sales of commodity grade mercury will 
result in an increase in world atmospheric mercury pollution. 
The increase will be caused by the increase in virgin mercury 
mining. More troubling is the likelihood that the new mining 
that will occur will be from what is called artisanal mercury 
mining. This type of mining is much less efficient because of 
the small scale and crude equipment. Air emissions could be as 
much as 50 percent of production. An effect of an export ban of 
secondary mercury from the United States and from the European 
Union could result in an increase in global mercury pollution 
by 500 tons a year. Along with the current mercury mining 
pollution, the result of the legislation could be up to 540 
tons per year.
    The argument that the suspension of mercury sales will 
cause prices to increase and thereby cause less artisanal gold 
mining is not valid. As indicated by Mr. Ed Wyler, economist 
for Environmental Protection Agency, ``Demand for mercury by 
miners is insensitive to mercury price. HG cost is very small 
relative to value of recovered gold, approximately 0.1 
percent.'' Mr. Wyler's report, he indicated that it takes a 
pound of mercury to produce a pound of gold by artisanal 
miners. Today's world market price for mercury is about $8 per 
pound. Today's gold price of $650 per troy ounce is equal then 
to $9,477 per pound. Therefore, mercury cost is 0.08 percent. 
If the price of mercury were to increase to $100 per pound 
because of the removal of supplies from U.S. and Europe, then 
the mercury cost would become only 1 percent of the value of 
gold recovered. In my opinion, $100 per pound for mercury would 
be a sufficient incentive to create enough new artisanal 
mercury mines. These new mines would not only supply artisanal 
gold miners with the mercury they want, they will also produce 
much more atmospheric mercury pollution.
    I strongly recommend that H.R. 1534 not be passed. In 
addition, I strongly encourage the resumption of sales of 
mercury from Federal stockpiles. Passage of H.R. 1534 could 
result in 540 tons of mercury pollution per year. Non-passage 
of H.R. 1534 with the resumption of sales of stockpiles could 
result in the elimination of 40 tons of mercury pollution per 
year.
    Thank you. That concludes my statement.
    [The prepared statement of Mr. Lawrence follows:]

                      Testimony of Bruce Lawrence

    It is not advisable to establish a Federal stockpile for 
mercury. The result would be that more mercury air emissions 
will occur by the removal of secondary mercury from the 
international market.
    The world consumes approximately 2,000 tons of mercury per 
year. Of this, roughly 50 percent or 1,000 tons is provided by 
virgin mercury mining. Reports indicate that virgin mercury 
mining will lose approximately 4 percent of their production to 
air emissions. That makes 40 tons of mercury pollution 
annually. Virgin mercury mining occurs in China and in 
Kyrgyzstan. \1\
---------------------------------------------------------------------------
    1 Revich, Boris (1994): ``Mercury Levels in the Atmospheric Air of 
Some of the Former USSR Cities and in Human Blood, Hair and Urine'' 
published from the: International Conference on Mercury as a Global 
Pollutant. Whistler, British Columbia, Canada, July 10-14, 1994. Note: 
Mr. Revich indicates that the Khaidarkansky mine in Kirghizia emits 21 
tons of mercury per year. With an average production of 500 tons per 
year the 21 tons represents 4.2 percent.
---------------------------------------------------------------------------
    The markets in both China and Kyrgyzstan have shown that 
they will purchase secondary mercury to offset their mining 
production. If the United States were to encourage the sale of 
mercury from caustic soda plants and from the U.S. government 
stockpiles, then the world would be relieved of the 40 tons of 
mercury pollution annually.
    An export ban on sales of commodity-grade mercury will 
result in an increase in world atmospheric mercury pollution. 
The increase will be caused by the increase in virgin mercury 
mining. More troubling is the likelihood that the new mining 
that will occur will be from what is called artisanal mercury 
mining. This type of mining is much less efficient because of 
the small scale and crude equipment. Air emissions could be as 
much as 50 percent of production. The net effect of an export 
ban of secondary mercury from the United States and the 
European Union could result in an increase in global mercury 
pollution by 500 tons per year. Along with the current mercury 
mining pollution, the result of this legislation could be up to 
540 tons per year of mercury atmospheric pollution
    The argument that the suspension of mercury sales will 
cause prices to increase and thereby cause less artisanal gold 
mining is not valid. As indicated by Mr. Edward Weiler, 
economist for the Environmental Protection Agency, ``Demand for 
mercury by miners is insensitive to mercury price;'' ``Hg cost 
is very small relative to value of recovered gold 
(approximately 0.1 percent).'' \2\
---------------------------------------------------------------------------
    2 Weiler, E. (2002): ``Can the U.S. act alone on mercury?'' 
presented at the US EPA-sponsored conference: Breaking the Mercury 
Cycle: Long-Term Management of Surplus Mercury & Mercury-Bearing Waste, 
Boston, Massachusetts, USA, May 1-3, 2002
---------------------------------------------------------------------------
    In Mr. Weiler's report, he indicated that it takes a pound 
of mercury to produce a pound of gold by artisanal miners. 
Today's world market price for mercury is about $8 per pound. 
Today's gold price of $650 per troy ounce is equivalent to 
$9,477 per pound. Therefore mercury cost is .08 percent. If the 
price of mercury were to increase to $100 per pound because of 
the removal of supplies for the U.S. and Europe, then the 
mercury cost would become only 1 percent of the value of gold 
recovered. In my opinion, $100 per pound mercury would be 
sufficient incentive to create enough new artisanal mercury 
mines. These new mines would not only supply artisanal gold 
miners with the mercury they want, they will also produce much 
more atmospheric mercury pollution.
    I strongly recommend that H.R. 1534 not be passed. In 
addition, I strongly encourage the resumption of sales of 
mercury from the Federal stockpiles. Passage of H.R. 1534 could 
result in 540 tons of mercury pollution per year. Non-passage 
of H.R. 1534 with the resumption of sales from stockpiles could 
result in the elimination of 40 tons of mercury pollution per 
year.
                              ----------                              

    Mr. Wynn. Thank you very much, Mr. Lawrence.
    I would like to thank all the panelists. At this time, I 
would like to ask a few questions.
    First of all, Dr. Shannon, thank you very much for coming 
down from Boston. I certainly appreciate your presence here, 
and also your testimony.
    I want to ask a fairly narrow question with respect to the 
endorsements of this bill, H.R. 1534, that were made by the 
American Medical Association and the American College of 
Preventative Medicine. My question is basically this. I am not 
sure whether you are in a position to endorse on behalf of the 
Association of Pediatrics, but would you say that your position 
is consistent with the endorsements that have been previously 
made by the American Medical Association and the American 
College of Preventative Medicine?
    Dr. Shannon. I would say that the Academy's view is 
absolutely consistent with the principles of this legislation, 
that is, whatever can be done to reduce the global burden of 
elemental mercury.
    Mr. Wynn. Thank you.
    Dr. Greer, the EPA says that--and we have heard this 
testimony today--the administration's position is that we have 
to rely on demand management strategies. A couple of questions 
that are somewhat related. Do you think that just reducing 
demand and not addressing supply will solve the problem is the 
first question.
    The second question, are these mutually exclusive 
strategies?
    Ms. Greer. Actually, when people have taken a hard look at 
this they have concluded that the only real way to solve this 
problem is by ratcheting down supply and demand in a logical 
kind of hinged fashion. If you only reduce demand, then you get 
all this excess supply, the price gets lower and lower, and you 
sort of invite more and more uses. If you reduce supply and you 
don't reduce demand, then you get the problem that the 
gentleman from Bethlehem Apparatus was mentioning, that you 
might spark additional mining of mercury.
    So what needs to happen is a coordinated reduction of 
supply and demand.
    The only other comment I would have on EPA's call to lower 
mercury demand is this. We are on a glide path down of demand 
here in the United States, so that is really not our highest 
priority anymore to get us down to zero. We have really done a 
very good job, and we will be down at the bottom sometime soon. 
Our higher priority should then be to take steps to reduce 
demand abroad, and you are hard-pressed to come up with demand 
reduction strategies for these uses abroad, such as artisanal 
mining, except by constraining supply and making the price go 
up.
    And so I really don't see a demand reduction strategy 
without a supply reduction strategy making any sense in the 
long run.
    Mr. Wynn. Thank you very much. Just a follow-up question. 
Do you agree with the findings of the November 2006 report of 
the United Nations Environment Program that stated various 
location-specific global mercury project, training programs, 
and assessments have demonstrated that when mercury is less 
available and/or more expensive, less mercury is consumed as 
miners switch to more efficient practices, sometimes 
eliminating mercury use entirely.
    Ms. Greer. Well, Representative Wynn, these are the 
experts. That is the agency that has put the experts in the 
field and those people have thrown themselves at this problem 
for more than a decade, and so I think we have to respect their 
expertise along with the technical assistance and training that 
they are trying to do, that they feel that the scale of this 
problem is such that they really need this additional boost 
from worldwide constraining of supply in order to make a 
difference. I just think those are the people that have been in 
the field for more than a decade. We ought to take their 
conclusions seriously.
    Mr. Wynn. Thank you.
    Dr. Smith, I believe you indicated that 60 to 80 percent of 
all the mercury deposited in the U.S. comes from global 
sources. Can you amplify on the need to stop U.S. mercury 
exports and how poorly regulated uses overseas come back to 
impact the resources and public health concerns that we have?
    Mr. Smith. There have been a number of deposition modeling 
studies that have concluded that a substantial fraction of the 
mercury depositing in the U.S. and our States is coming from 
global sources. That may range from 50 to as high as 80, 85 
percent, so it is a very significant fraction.
    With respect to the export of mercury here, we do know that 
the distributive uses for artisanal gold mining and other 
unnecessary uses in third world countries, for example, mercury 
containing jewelry that can still be bought in Mexico provides 
an example of that. It is definitely contributing to releases 
of environmental mercury, which will enter the global 
circulation and impact the United States.
    Mr. Wynn. Thank you.
    Mr. Dungan, a couple of quick questions. I think the 
earliest part of your testimony basically established the fact 
that there are alternatives to mercury use, which is why there 
is such a decline in the United States. Is that correct?
    Mr. Dungan. There are alternatives, yes.
    Mr. Wynn. OK, all right. And second, I think you said 
basically you would support a stockpile, so you are not so much 
concerned about the new virgin mines. You seem to be saying--
and I don't want to put words in your mouth--but you seem to be 
saying if there is a U.S. stockpile, you are fine with banning 
exports. Is that----
    Mr. Dungan. Well, you may put it that way, but our concern 
is that this bill, as it exists now, really puts the cart ahead 
of the horse. All you have done is ban exports but there is no 
policy that the bill sets to handle surplus mercury. So we are 
concerned about that.
    But let me also go back to the first question. Each 
facility has to look at what its long-term options are, and to 
say that there are alternatives available is one issue. The 
other issue, does this alternative make sense for this 
facility?
    Mr. Wynn. Thank you very much. I believe my time has 
expired.
    I will turn to the ranking member, Mr. Shimkus, for 
questions.
    Mr. Shimkus. Thank you, Mr. Chairman. Before I take my 
questions, I just want to welcome Paul Gillmor here, a former 
chairman of the subcommittee for 6 years. He is on a week 
leave--not leave of absence, but he has joined us for this 
week, and he shows his commitment because he is even here at 
this hearing. Thank you.
    Quick question, I only have a short couple minutes. Good or 
bad, Dr. Greer?
    Ms. Greer. Good. Want to know why, or do you want to keep 
going?
    Mr. Shimkus. No, no, good or--if broken?
    Ms. Greer. If broken, it is a very miniscule amount of 
mercury. I think----
    Mr. Shimkus. So it is OK then?
    Ms. Greer. It is OK.
    Mr. Shimkus. All right, good.
    Dr. Shannon?
    Dr. Shannon. I would agree that if broken, the vapor would 
dissipate quickly and not produce a significant health----
    Mr. Shimkus. Dr. Smith.
    Mr. Smith. Yes, good, but if you break millions and 
millions and millions of them, it would add up to quite a bit 
of mercury.
    Mr. Shimkus. And it goes up in the atmosphere and into the 
fish?
    Mr. Smith. And ultimately into the fish.
    Mr. Shimkus. Mr. Dungan.
    Mr. Dungan. I really am not qualified to answer that.
    Mr. Shimkus. All right, Mr. Lawrence?
    Mr. Lawrence. I will say good. The amount of mercury 
consumed by the lighting industry is a very, very small 
fraction----
    Mr. Shimkus. Let me keep going quickly then.
    This is labeled mercury. Good or bad? Just go down the 
line, good or bad, that this is labeled as having mercury in 
it?
    Ms. Greer. I think it is fine that it has a label.
    Mr. Shimkus. Good. Dr. Shannon?
    Dr. Shannon. Agree.
    Mr. Shimkus. Dr. Smith.
    Mr. Smith. Agree and it is labeled because of State 
requirements and legislation that requires it to be.
    Mr. Shimkus. Not Federal?
    Mr. Smith. No.
    Mr. Shimkus. We debated that a couple----
    Mr. Dungan. I agree.
    Mr. Shimkus. Mr. Lawrence?
    Mr. Lawrence. I agree.
    Mr. Shimkus. Ad in today's Hill, exposing the benefits of 
fluorescent light bulbs, no labeling of mercury, good or bad? 
Dr. Greer.
    Ms. Greer. I really haven't worked on this issue, so I have 
to say----
    Mr. Shimkus. Is mercury good or bad?
    Ms. Greer. The need for a label, I think it is a good idea 
to have a label.
    Mr. Shimkus. All right. Dr. Shannon?
    Dr. Shannon. I don't think it was necessary to put the word 
``mercury'' on that ad.
    Mr. Shimkus. Dr. Smith?
    Mr. Smith. Not in the ad, but it should be labeled if they 
are selling them in most of the New England States.
    Mr. Shimkus. And you all don't care.
    OK. Dr. Smith, on March 20, 2007, ECOS approved resolution 
No. 07-1 entitled ``Creating a Partnership for a National 
Vision for Mercury'' which I have right here. This resolution 
was very clear about not having the States preempted in their 
attempt to clarify and address mercury. Massachusetts and my 
State of Illinois have enacted strong legislation and 
implemented other programs to remove mercury from our schools. 
In view of ECOS's resolution and our States' efforts to protect 
public health against elemental mercury exposures, do you and 
ECOS support Federal preemption that compels schools and 
daycare centers to install mercury containing energy efficient 
lighting equipment, even if they do not want to do it, because 
of health risks from mercury?
    Mr. Smith. Well, as a general rule, the States really do 
not like Federal preemption on pretty much anything, so we 
would like to have the alternative of doing what is best in our 
individual circumstances.
    Mr. Shimkus. Thank you.
    Dr. Greer, should energy efficient lighting with mercury be 
compelled in schools and daycare centers to reduce electricity 
use if the school or daycare center does not want to use them 
out of public health and environmental concerns over exposures 
to released elemental mercury?
    Ms. Greer. Mr. Shimkus, I do appreciate how much you are 
concerned about the mercury in these bulbs, but I am here to 
tell you that if you are worried about mercury exposure in 
schools, you should worry about what is in their thermometers 
and what is in their chemistry labs.
    Mr. Shimkus. Well, you are right. That is the whole point, 
if you----
    Ms. Greer. Because if you are talking about--what we are 
talking about----
    Mr. Shimkus. Reclaiming my time. If we are talking about 
the problem of mercury, then we ought to be talking about the 
problem of mercury.
    Ms. Greer. I just think we ought to put our----
    Mr. Shimkus. It should be a comprehensive approach, and we 
are promoting thousands of increased light bulbs--and I am not 
saying I disapprove of them, but----
    Ms. Greer. But you are starting at the very smallest use of 
mercury that everybody----
    Mr. Shimkus. Do you know where these come from?
    Ms. Greer. China.
    Mr. Shimkus. Do you know who is mining it?
    Ms. Greer. China.
    Mr. Shimkus. What is the problem with mercury in the air, 
the mining operations that you just promoted? Zero Mercury in 
international organizations, are you part of that?
    Ms. Greer. I am part of that.
    Mr. Shimkus. And you know in this publication it says what 
to do about mercury in electronics equipment?
    Ms. Greer. Right.
    Mr. Shimkus. What does it say?
    Ms. Greer. But in this case----
    Mr. Shimkus. No, what does your organization say in this 
document?
    Ms. Greer. It is zero for electronic equipment, but it is--
--
    Mr. Shimkus. It says no mercury in electronics. I mean, you 
are a member of this group.
    Ms. Greer. I am.
    Mr. Shimkus. So your testimony is contradictory. When you 
say it is not enough to cause any effect, but then 
internationally you say ban it from all electronic equipment.
    Ms. Greer. Excuse me, I would like to set the record 
straight about my position. This is a big problem of 3,500 tons 
of mercury a year. Policies should start in the big places and 
not in the smallest places. It is my opinion that starting on 
this problem with compact fluorescent light bulbs is starting 
at the miniscule end of it----
    Mr. Shimkus. I am starting at China, and I yield back my 
time.
    Mr. Wynn. The Chair recognizes the bill's sponsor, Mr. 
Allen.
    Mr. Allen. Thank you.
    Dr. Greer, I too think we ought to begin with the major 
problems. I would just add to this debate with the comment that 
compact fluorescent light bulbs, among other things, are 
intended to reduce the demand for new coal-fired power plants, 
which do emit mercury and which is a significant source of 
mercury here.
    But I want to come back to your testimony. Your written 
testimony, and really, pages 15 through 19. When Mr. Gulliford 
was testifying in the first panel, he talked a lot about the 
fear he had that an export ban on mercury would essentially 
lead to increased mining. It seems to me in those four pages, 
you make a very compelling case that it would not do that, and 
I would like to ask you to address that issue directly.
    Ms. Greer. Let me just summarize what I said in that 
written testimony.
    There were two reasons that we don't think that this is at 
all likely. The first is that most places can't mine mercury in 
the world. The largest mine in the world in Spain has been 
intentionally shuttered because the European Union has been 
constraining supply. The mines in Algeria were closed. They had 
technical problems for years and are not expected to reopen. 
This really is leaving only the Kyrgyzstan mine as a mine that 
is in operation for export, and that mine is suffering from 
problems itself. It has not been able to produce more than 500 
tons a year, and according to the World Bank, its deposits 
really aren't very rich.
    This leaves, of course, China, but as we already said, 
China is mining a tremendous amount of mercury but not for 
export. They use it all for their own purposes.
    And so when you look at what is really available through 
more mining, there are just not very many places in the world 
to imagine that this could really happen.
    And then the second reason I put in my testimony is because 
UNEP has just done a very extensive analysis of global demand, 
and they predict that between now and 2015, global demand is 
going to go down. And so as a matter of a financial investment 
by a company or a country, it doesn't seem like a very 
attractive investment to undergo the expense of opening up a 
new mine in the case that global demand is slowly going down.
    Mr. Allen. Two other points. Mr. Gulliford was not aware of 
any steps by Kyrgyzstan, but you mentioned in your testimony 
that at an October 2006 European Commission Mercury meeting in 
Brussels, the head of the mine asked the international 
community for assistance in transitioning through other 
economic activities in the region.
    Ms. Greer. That is right. And NRDC was at that meeting. 
Kyrgyzstan was invited because they are so important to global 
supply of mercury, and what we learned at that meeting is that 
the mine is subsidized by the government. It is not a profit 
making institution. The government would like very much to find 
alternative employment opportunities for people in that mine 
and convert that area to non-mercury mining because it is not a 
very profitable operation for them anyway. They were seeking 
international assistance for development that would enable them 
to close that mine.
    Mr. Allen. And finally, could you speak to the current 
activities in the European Union to ban the export of mercury 
from those countries?
    Ms. Greer. Yes, and in fact, I have a small news 
announcement to make on that. As some of you know, the European 
Union has also been contemplating an export ban, and they 
export much more mercury than the United States. Combined, if 
the European Union and the United States did an export ban, we 
would take a very nice bite out of the global supply of 
mercury. The EU is about a year and a half ahead of us in terms 
of their deliberation, and just on Tuesday their Parliament 
passed the mercury export ban, which will go into effect in 
2010. Now they have the functional equivalent of a conference 
between the Council of Ministers and the Parliament, but that 
should be completed by the fall. There are not big differences 
between the Parliament bill and the Council of Ministers bill, 
and so as you gentlemen can imagine, it won't take too long, I 
think, for them to pass this in the fall.
    Mr. Allen. Thank you.
    Finally, Mr. Smith, I have a quick question. Taking your 
position as you support a ban on the export of mercury, 
providing there is narrowly tailored exemptions for what you 
refer to as essential uses, and I am always concerned when you 
start writing exemptions for essential uses or phrases like 
that, they can be big enough to drive a pretty big truck 
through. So I wondered if you could expand on that. Do you mean 
anything more than dental amalgam and compact fluorescent light 
bulbs, or do you have any thoughts on how we would make that 
point?
    Mr. Smith. Yes, the Quicksilver Caucus group that pulled 
together those principles, when thinking about essential uses, 
could really only come up with the three that are listed, 
dental amalgam uses, uses in fluorescent lamps, and some uses 
for medical equipment where we don't have options that are 
readily available. Those are the ones we could come up with. We 
really couldn't preclude that there may be other ones that are 
out there. We did not have the time to invest a serious 
research effort into it. Because there may be others, we wanted 
to leave that as an option to have exemptions for those 
essential uses that might be identified by a professional 
committee at some future date.
    Mr. Allen. Great, thank you.
    Mr. Wynn. I thank the gentleman.
    At this time, the Chair would recognize the former chairman 
of this subcommittee, Mr. Gillmor, for questions.
    Mr. Gillmor. Thank you very much, Mr. Chairman. It is good 
to be back, even if it is for a temporary period.
    Let me ask Mr. Dungan, and you proposed a central storage 
facility. We have had some experience with nuclear waste with a 
proposal with this Yucca Mountain. That has not been 
successful. It is not being done. We have nuclear waste stored 
at about 100 locations around the country. Why do you think we 
will be any more successful, and you might want to jump in on 
this also, Mr. Lawrence, why do you think we would be any more 
successful with this than we have been with Yucca Mountain?
    Mr. Dungan. Well, mercury waste, in my opinion, is not 
nuclear waste. The Federal Government does have a successful 
history of safely storing mercury for 50, 60 years. The concern 
is if private industry were to store this mercury, under 
current U.S. regulations we don't have the authority to do it. 
If you impose an export ban, at some point, there is no market 
for mercury. It no longer becomes a commodity, and then how is 
it handled? Is it handled as waste, and how is this controlled, 
and what are these long-term issues? This mercury is going to 
be around, not just for 40 years as proposed in the bill, but 
forever, and someone has to be able to manage it forever. We 
don't think that there is a private organization that can do 
that.
    Mr. Gillmor. Let me ask you, if the U.S. and the EU ban 
mercury exports and China does not--I mean, frankly, I think we 
know what China's record has been on global warming. They are 
going to be the largest carbon emitter on the planet. They have 
no interest exhibited so far of trying to limit that. We are 
getting food from them that has been poisoned and they don't 
care much about examining that.
    But I guess my question is if the U.S. and EU ban it and 
China does not, what will be the result in terms of total 
mercury in the planet under that----
    Mr. Dungan. Well, I have a hard time believing that China 
will not supply all its mercury needs, whether that be by 
importing mercury or starting new mines. I think they will. And 
while most uses of mercury are declining, mercury use for 
catalysts in chemical plants in China and artisanal mining 
throughout the world are increasing, and as Mr. Lawrence 
pointed out, the economics would appear to indicate that there 
might be an incentive for new mines to be started up. I am not 
saying they will, but I think this is a clear issue that needs 
to be addressed before we impose any kind of export ban.
    Mr. Gillmor. Thank you. Let me ask you another question on 
that. Forty years, do you think that is a relevant and a 
necessary timeline? I mean, mercury is basically eternal. 
Nuclear fuel is not. It does have a finite time, so is 40 years 
a realistic timeframe?
    Mr. Dungan. In my opinion, no. I think in a zillion years 
that nuclear waste may be harmless, and mercury will still be 
there in its current form. I believe that any facility, while 
you might look at a 40-year economic horizon, it ought to be 
designed that you expect that facility be there forever.
    Mr. Gillmor. Thank you. I yield back, Mr. Chairman.
    Mr. Wynn. Thank the gentleman.
    At this time the Chair would recognize Mrs. Capps. I am 
sorry, Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. Smith, while States I understand--and Illinois would 
have an interest in this as well--are not interested in 
preemption, how would you feel about Federal legislation that 
at least lets the States go beyond the level of the Federal 
Government, would it meet national standards?
    Mr. Smith. I think the States would probably be comfortable 
with that, and with respect to the mercury world, there are 
numerous States, including Illinois and my State, 
Massachusetts, and many, many others that are already exceeding 
EPA Federal requirements with respect to pollution controls and 
pollution prevention activities, so that is certainly 
consistent with what we are already doing.
    Ms. Schakowsky. Dr. Greer, a lot has been made of the 
storage issue, and yet, I am looking at your testimony that 
says as a technical matter, it is quite easy to store mercury. 
I wondered if you wanted to respond to this notion, both about 
what an incredible problem it seems to be presented as, and if 
you could talk about that.
    Ms. Greer. Well, in my capacity at NRDC, I work on a lot of 
different toxic chemicals, and I am here to tell you that 
mercury is a dream chemical for storage compared to most of the 
other chemicals that are toxic that are out there. It is not 
reactive, it is not explosive, if you keep it below 70 degrees 
it doesn't volatilize, and so it really is a very simple matter 
to store it in flasks as is going on, or in stainless steel 
tanks in a monitored warehouse. If all the toxic chemicals I 
worked on were this easy to store, we wouldn't have the sort of 
Superfund problems that we have and we wouldn't have the 
controversies that we have about storage piles for other 
hazardous materials.
    Ms. Schakowsky. So would you say that this notion that we 
have to solve the storage problem before we address this export 
issue is necessary? You would disagree with that?
    Ms. Greer. Well, I don't think there is--and probably Mr. 
Dungan agrees, there isn't really a technical problem about 
storage. What he is referring to is we need to decide where we 
want to put it and what happens with the legal liability and 
other issues.
    I think the bill does this by setting up the FACA committee 
and by asking for a recommendation to Congress well in advance 
of when the ban actually goes into effect. So from my 
perspective, that concern is addressed and we do intentionally 
have in the bill something that lines up a storage solution 
before it goes into effect.
    Ms. Schakowsky. Thank you.
    I am fascinated with your testimony, Mr. Lawrence, because 
it is so precise. You talk about how the net effect of an 
export ban could result in global mercury pollution by 500 tons 
per year. The result of this legislation would be up to 540 
tons per year, and you go on to talk about how much--``Non-
passage could result in the elimination of 40 tons of mercury 
pollution per year.'' I would be very interested in seeing what 
all your assumptions are and how you arrived at this 
calculation of the 540 tons more and the 40 tons less. And if 
you could just submit that, I would really--if you want to make 
a comment?
    Mr. Lawrence. Well, the only thing that I haven't put in 
what I have submitted already is that the 500 tons is my 
estimate, that there is 500 tons of mercury used in artisanal 
mining, so because of the one-to-one relationship with the 
mercury and gold. So that if we take away the supply sources of 
the artisanal miners, then it is going to be produced someplace 
else, and that----
    Ms. Schakowsky. So you discount the historical experience, 
really, that Dr. Greer referred to that actually decreasing 
mercury availability has not, in fact, created more. Actually 
there has been less. Am I saying that correctly, that some of 
these operations have actually shut down and we haven't seen an 
expansion of mercury mining? Let me just make sure I have got 
that right.
    Ms. Greer. Yes, we might be getting confused between mining 
for gold, artisanal mining for gold and mercury mines, could 
you rephrase the question?
    Ms. Schakowsky. Well, I am trying to understand if the 
basis for deciding that this bill will result in 540 tons of 
mercury pollution and that resumption of sales from stockpiles 
would result in the elimination of 40 tons of mercury 
pollution. I don't know if what you had said relates to this 
calculation, but I mean, that is pretty precise.
    Mr. Lawrence. I took 4 percent of 1,000 tons of virgin 
mining that I mentioned in here. If we were selling 1,000 tons 
from the stockpile, it could displace that 1,000 tons of virgin 
mercury mining.
    Ms. Greer. To weigh these two things, if we were to open 
new mines and we had 40 new tons of mercury pollution out of 
that, that would--setting everything else aside that would be 
worse than using recycled mercury. But what we are really 
comparing is that having an over-supply of mercury in commerce 
and meeting all of those demands, which is 3,500 tons of 
mercury a year.
    So for the speculative outcome that we might cause more 
mining that might cause 40 additional tons of releases, against 
an already existing 3,500 ton demand and consumption every year 
that we are trying to address. And the way to do that is to 
ratchet down supply and demand.
    Mr. Wynn. The gentlelady's time is expired.
    Ms. Schakowsky. Thank you.
    Mr. Wynn. We have got a vote on. I am going to turn it to 
Mrs. Capps for questions, and I think we will be able to 
conclude the hearing prior to voting.
    Mrs. Capps. Thank you very much.
    I want to address my questions, or at least some of them, 
to Dr. Shannon. Can you help us understand the mercury-related 
symptoms in illnesses that were observed in the small-scale 
gold mining communities discussed in the UN's Global Mercury 
Project?
    Dr. Shannon. Well, I will answer in this way and I hope I 
answer your question. First, the effects of elemental mercury 
exposure are actually quite subtle until the exposure is 
severe, truly at an extreme, and at that point, the primary 
effects are neurologic. That is generally what you will see in 
children, and as I mentioned in my testimony, it can vary from 
very subtle neurobehavioral difficulty concentrating types of 
symptoms to the more severe seizures or life-threatening 
neurologic events.
    Mrs. Capps. You are implying that it isn't readily detected 
perhaps at first, that the intoxication is the end of it?
    Dr. Shannon. That is exactly right. So the point I am 
hoping to make is that at the point that you are seeing 
symptoms in children or adults, their exposure is severe. They 
have an enormous mercury burden.
    Mrs. Capps. Let me ask you then, what will happen and does 
happen to the mothers and children who have been working in 
these gold fields and handling the mercury?
    Dr. Shannon. We believe that most, if not all, of the 
neurologic consequences of elemental mercury exposure are 
permanent. Almost as certainly, some of it as it is eliminated 
from the body, there would be some improvement but there is, we 
believe, no hope of returning to baseline function.
    Mrs. Capps. Finally, if mercury exports from the U.S. are 
banned by 2010, what type of health impact would that have on 
these small-scale mining towns, and do you think H.R. 1534 
would have a positive step in reducing harm from mercury in the 
environment, not only in these countries, but would it even be 
important here in the U.S.?
    Dr. Shannon. Again, let me try to answer your question in 
the following way. Anything that we can do to reduce human 
exposure to elemental mercury will result in vastly improved 
health, vastly improved health outcomes, and in the case of 
children, I am just thinking about the developing brain and 
being able to reduce, if not eliminate, exposure of this toxic 
metal to their developing brain will have a great positive 
impact on health.
    Mrs. Capps. Dr. Greer, you might want to add something. I 
have a little more time and I know we are pressing it with 
votes. If I am allowed, I would ask you to follow on with that, 
if you care to?
    Ms. Greer. I don't have too much to add to that, except to 
strongly agree that we know that the damage that mercury causes 
is permanent, particularly to the developing infant, and it is 
for that reason that it is such a high priority for NRDC, for 
the Zero Mercury Group, and other international groups to 
eliminate large sources of mercury exposure.
    Mrs. Capps. And it would be in the gold mining communities 
that were described in the project, but in this country as 
well?
    Ms. Greer. In this country as well. Wherever there are 
large exposures to mercury.
    Mrs. Capps. That is the end of my questioning. Thank you.
    Mr. Wynn. I thank the lady for her questions. I want to 
thank all the witnesses for coming here today and thank you for 
your testimony.
    I believe this concludes our questions. I want to remind 
members that they may submit additional questions for the 
record to be answered by relevant witnesses, the questions 
should be submitted to the committee clerk in electronic form 
within the next 10 days. The clerk will notify your offices of 
the procedures. I want to thank all the staff for helping us 
this morning.
    Without objection, the subcommittee hearing is now 
adjourned.
    [Whereupon, at 12:40 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 43289.222
    
    [GRAPHIC] [TIFF OMITTED] 43289.223
    
    [GRAPHIC] [TIFF OMITTED] 43289.224
    
    [GRAPHIC] [TIFF OMITTED] 43289.225
    
    [GRAPHIC] [TIFF OMITTED] 43289.079
    
    [GRAPHIC] [TIFF OMITTED] 43289.080
    
    [GRAPHIC] [TIFF OMITTED] 43289.081
    
    [GRAPHIC] [TIFF OMITTED] 43289.082
    
    [GRAPHIC] [TIFF OMITTED] 43289.083
    
    [GRAPHIC] [TIFF OMITTED] 43289.084
    
    [GRAPHIC] [TIFF OMITTED] 43289.094
    
    [GRAPHIC] [TIFF OMITTED] 43289.095
    
    [GRAPHIC] [TIFF OMITTED] 43289.096
    
    [GRAPHIC] [TIFF OMITTED] 43289.097
    
    [GRAPHIC] [TIFF OMITTED] 43289.098
    
    [GRAPHIC] [TIFF OMITTED] 43289.099
    
    [GRAPHIC] [TIFF OMITTED] 43289.100
    
    [GRAPHIC] [TIFF OMITTED] 43289.101
    
    [GRAPHIC] [TIFF OMITTED] 43289.102
    
    [GRAPHIC] [TIFF OMITTED] 43289.103
    
    [GRAPHIC] [TIFF OMITTED] 43289.104
    
    [GRAPHIC] [TIFF OMITTED] 43289.105
    
    [GRAPHIC] [TIFF OMITTED] 43289.106
    
    [GRAPHIC] [TIFF OMITTED] 43289.107
    
    [GRAPHIC] [TIFF OMITTED] 43289.108
    
    [GRAPHIC] [TIFF OMITTED] 43289.109
    
    [GRAPHIC] [TIFF OMITTED] 43289.110
    
    [GRAPHIC] [TIFF OMITTED] 43289.111
    
    [GRAPHIC] [TIFF OMITTED] 43289.112
    
    [GRAPHIC] [TIFF OMITTED] 43289.113
    
    [GRAPHIC] [TIFF OMITTED] 43289.114
    
    [GRAPHIC] [TIFF OMITTED] 43289.115
    
    [GRAPHIC] [TIFF OMITTED] 43289.116
    
    [GRAPHIC] [TIFF OMITTED] 43289.117
    
    [GRAPHIC] [TIFF OMITTED] 43289.118
    
    [GRAPHIC] [TIFF OMITTED] 43289.119
    
    [GRAPHIC] [TIFF OMITTED] 43289.120
    
    [GRAPHIC] [TIFF OMITTED] 43289.121
    
    [GRAPHIC] [TIFF OMITTED] 43289.085
    
    [GRAPHIC] [TIFF OMITTED] 43289.086
    
    [GRAPHIC] [TIFF OMITTED] 43289.087
    
    [GRAPHIC] [TIFF OMITTED] 43289.088
    
    [GRAPHIC] [TIFF OMITTED] 43289.089
    
    [GRAPHIC] [TIFF OMITTED] 43289.090
    
    [GRAPHIC] [TIFF OMITTED] 43289.091
    
    [GRAPHIC] [TIFF OMITTED] 43289.092
    
    [GRAPHIC] [TIFF OMITTED] 43289.093
    
    [GRAPHIC] [TIFF OMITTED] 43289.128
    
    [GRAPHIC] [TIFF OMITTED] 43289.129
    
    [GRAPHIC] [TIFF OMITTED] 43289.130
    
    [GRAPHIC] [TIFF OMITTED] 43289.131
    
    [GRAPHIC] [TIFF OMITTED] 43289.132
    
    [GRAPHIC] [TIFF OMITTED] 43289.133
    
    [GRAPHIC] [TIFF OMITTED] 43289.134
    
    [GRAPHIC] [TIFF OMITTED] 43289.135
    
    [GRAPHIC] [TIFF OMITTED] 43289.136
    
    [GRAPHIC] [TIFF OMITTED] 43289.137
    
    [GRAPHIC] [TIFF OMITTED] 43289.138
    
    [GRAPHIC] [TIFF OMITTED] 43289.139
    
    [GRAPHIC] [TIFF OMITTED] 43289.140
    
    [GRAPHIC] [TIFF OMITTED] 43289.141
    
    [GRAPHIC] [TIFF OMITTED] 43289.142
    
    [GRAPHIC] [TIFF OMITTED] 43289.143
    
    [GRAPHIC] [TIFF OMITTED] 43289.144
    
    [GRAPHIC] [TIFF OMITTED] 43289.145
    
    [GRAPHIC] [TIFF OMITTED] 43289.146
    
    [GRAPHIC] [TIFF OMITTED] 43289.147
    
    [GRAPHIC] [TIFF OMITTED] 43289.148
    
    [GRAPHIC] [TIFF OMITTED] 43289.149
    
    [GRAPHIC] [TIFF OMITTED] 43289.150
    
    [GRAPHIC] [TIFF OMITTED] 43289.151
    
    [GRAPHIC] [TIFF OMITTED] 43289.152
    
    [GRAPHIC] [TIFF OMITTED] 43289.153
    
    [GRAPHIC] [TIFF OMITTED] 43289.154
    
    [GRAPHIC] [TIFF OMITTED] 43289.155
    
    [GRAPHIC] [TIFF OMITTED] 43289.156
    
    [GRAPHIC] [TIFF OMITTED] 43289.157
    
    [GRAPHIC] [TIFF OMITTED] 43289.158
    
    [GRAPHIC] [TIFF OMITTED] 43289.159
    
    [GRAPHIC] [TIFF OMITTED] 43289.160
    
    [GRAPHIC] [TIFF OMITTED] 43289.161
    
    [GRAPHIC] [TIFF OMITTED] 43289.162
    
    [GRAPHIC] [TIFF OMITTED] 43289.163
    
    [GRAPHIC] [TIFF OMITTED] 43289.164
    
    [GRAPHIC] [TIFF OMITTED] 43289.165
    
    [GRAPHIC] [TIFF OMITTED] 43289.166
    
    [GRAPHIC] [TIFF OMITTED] 43289.167
    
    [GRAPHIC] [TIFF OMITTED] 43289.168
    
    [GRAPHIC] [TIFF OMITTED] 43289.169
    
    [GRAPHIC] [TIFF OMITTED] 43289.170
    
    [GRAPHIC] [TIFF OMITTED] 43289.171
    
    [GRAPHIC] [TIFF OMITTED] 43289.172
    
    [GRAPHIC] [TIFF OMITTED] 43289.173
    
    [GRAPHIC] [TIFF OMITTED] 43289.174
    
    [GRAPHIC] [TIFF OMITTED] 43289.175
    
    [GRAPHIC] [TIFF OMITTED] 43289.176
    
    [GRAPHIC] [TIFF OMITTED] 43289.177
    
    [GRAPHIC] [TIFF OMITTED] 43289.178
    
    [GRAPHIC] [TIFF OMITTED] 43289.179
    
    [GRAPHIC] [TIFF OMITTED] 43289.180
    
    [GRAPHIC] [TIFF OMITTED] 43289.181
    
    [GRAPHIC] [TIFF OMITTED] 43289.182
    
    [GRAPHIC] [TIFF OMITTED] 43289.226
    
    [GRAPHIC] [TIFF OMITTED] 43289.227
    
    [GRAPHIC] [TIFF OMITTED] 43289.228
    
    [GRAPHIC] [TIFF OMITTED] 43289.229
    
    [GRAPHIC] [TIFF OMITTED] 43289.230
    
    [GRAPHIC] [TIFF OMITTED] 43289.231
    
    [GRAPHIC] [TIFF OMITTED] 43289.232
    
    [GRAPHIC] [TIFF OMITTED] 43289.233
    
    [GRAPHIC] [TIFF OMITTED] 43289.234
    
    [GRAPHIC] [TIFF OMITTED] 43289.235
    
    [GRAPHIC] [TIFF OMITTED] 43289.236
    
    [GRAPHIC] [TIFF OMITTED] 43289.237
    
    [GRAPHIC] [TIFF OMITTED] 43289.238
    
    [GRAPHIC] [TIFF OMITTED] 43289.239
    
    [GRAPHIC] [TIFF OMITTED] 43289.240
    
    [GRAPHIC] [TIFF OMITTED] 43289.241
    
    [GRAPHIC] [TIFF OMITTED] 43289.183
    
    [GRAPHIC] [TIFF OMITTED] 43289.184
    
    [GRAPHIC] [TIFF OMITTED] 43289.185
    
    [GRAPHIC] [TIFF OMITTED] 43289.186
    
    [GRAPHIC] [TIFF OMITTED] 43289.187
    
    [GRAPHIC] [TIFF OMITTED] 43289.188
    
    [GRAPHIC] [TIFF OMITTED] 43289.189
    
    [GRAPHIC] [TIFF OMITTED] 43289.190
    
    [GRAPHIC] [TIFF OMITTED] 43289.191
    
    [GRAPHIC] [TIFF OMITTED] 43289.192
    
    [GRAPHIC] [TIFF OMITTED] 43289.193
    
    [GRAPHIC] [TIFF OMITTED] 43289.194
    
    [GRAPHIC] [TIFF OMITTED] 43289.195
    
    [GRAPHIC] [TIFF OMITTED] 43289.196
    
    [GRAPHIC] [TIFF OMITTED] 43289.197
    
    [GRAPHIC] [TIFF OMITTED] 43289.198
    
    [GRAPHIC] [TIFF OMITTED] 43289.199
    
    [GRAPHIC] [TIFF OMITTED] 43289.200
    
    [GRAPHIC] [TIFF OMITTED] 43289.201
    
    [GRAPHIC] [TIFF OMITTED] 43289.202
    
    [GRAPHIC] [TIFF OMITTED] 43289.203
    
    [GRAPHIC] [TIFF OMITTED] 43289.204
    
    [GRAPHIC] [TIFF OMITTED] 43289.205
    
    [GRAPHIC] [TIFF OMITTED] 43289.206
    
    [GRAPHIC] [TIFF OMITTED] 43289.207
    
    [GRAPHIC] [TIFF OMITTED] 43289.208
    
    [GRAPHIC] [TIFF OMITTED] 43289.209
    

</pre></body></html>
